<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF ANNICE M. WAGNER, CHIEF JUDGE, DISTRICT OF 
            COLUMBIA COURT OF APPEALS, CHAIRMAN OF THE 
            JOINT COMMITTEE ON JUDICIAL ADMINISTRATION
ACCOMPANIED BY ANNE WICKS, EXECUTIVE OFFICER FOR THE D.C. COURTS


                OPENING STATEMENT OF SENATOR MIKE DEWINE


    Senator DeWine. Good morning. The hearing will come to 
order.
    Today I am convening the first fiscal year 2004 budget 
hearing for the District of Columbia. Just 3 weeks ago, the 
President signed the fiscal year 2003 omnibus appropriations 
bill into law. That bill contained, of course, the fiscal year 
2003 District of Columbia appropriations bill along with the 
other ten remaining appropriations bills.
    Senator Stevens deserves high praise for completing these 
bills after taking the Chairman's gavel on January 15. He has 
recently expressed his desire and his intent to complete Senate 
action on all 13 appropriations bills by the August recess.
    With that charge, we are forging ahead in this subcommittee 
to review the fiscal year 2004 budget submissions of each 
Federal agency, as well as Mayor Williams' budget priorities. I 
want to take this opportunity to commend Senator Landrieu, who 
will be joining us in just a moment, our subcommittee's Ranking 
Member and the former chairman of this subcommittee, for her 
past leadership as the Chairman of the committee, and to 
recognize her very hard work to make life better for the 
residents of the District of Columbia.
    Over the years, Senator Landrieu and I have worked together 
to do many things on this subcommittee, but particularly to try 
to protect the interests of children in this city. And I am 
sure that we will continue to reach across the aisle in that 
endeavor. It is a real pleasure to work with Senator Landrieu. 
We have operated this subcommittee on a bipartisan basis. She 
did that when she was the Chairman; and I intend to continue to 
do that during the time that I am chairman.
    Today, as we begin our fiscal year 2004 hearings, I would 
like to share some Federal funding priorities that I currently 
see for our Nation's Capital. First, I intend to ensure that 
the requirements of the Family Court Act, which Senator 
Landrieu and I sponsored, continue to be aggressively pursued. 
In fiscal year 2002 and fiscal year 2003, we appropriated a 
total of $48 million to support the Family Court. Today we are 
anxious to hear how the Court has used its fiscal year 2002 
funds and how it is planning to use its recently appropriated 
fiscal year 2003 funds.
    Having focused for the past 2 years on the Family Court, 
this year we intend to turn our attention to an agency with 
which the Family Court frequently interacts, the Child and 
Family Services Agency. This is the agency, of course, that is 
responsible for helping children in the District obtain 
permanent homes. We plan to hold a series of hearings over the 
next few months to determine the status of the foster care 
system in the city and to explore ways to improve adoption 
opportunities for youngsters in this system.
    And let me just say that we have a series of hearings that 
are planned. We will take whatever time that is necessary 
during the next several years to fully understand and explore 
what is going on in this system. This will be the No. 1 
priority of the subcommittee for the next 2 years. And we will 
take the time, and we will put the energy into it, whatever is 
necessary.
    In addition to pursuing the Family Court's objectives and 
improving the foster care system, I want to ensure that efforts 
to construct the biodecontamination and quarantine facilities 
at Children's Hospital and Washington Hospital Center continue 
to proceed. In last year's budget, Senator Landrieu and I 
prioritized this and set aside money to work in this area.
    In the event of a biological, chemical, or high-yield 
explosive attack, these two hospitals will provide critical 
care to children and adults living in and visiting our Nation's 
Capital. They must be equipped to deal with the consequences of 
terrorist attacks. We provide resources to begin this activity. 
We provided resources to begin this activity in fiscal year 
2003. And we must make sure that we continue this work.
    We also would like to build on the $50 million fiscal year 
2003 Federal investment in the city's combined sewer overflow 
project. This multi-year project will revamp a system that was 
constructed at the end of the 19th Century, and which overflows 
50 to 60 times every year, dumping raw sewage into the 
Anacostia River. Given the demands the Federal Government 
places on this system, we clearly have a responsibility to 
contribute to its much-needed renovations. If we can share the 
cost of this project with the city, we would shorten the 
completion time from 40 to 15 years.
    By cleaning up the river, we would expedite the city's 
proposed waterfront development initiative. This development 
would ultimately provide recreational and commercial 
opportunities for D.C. residents and visitors.
    Clearly, there are many worthy activities which will place 
demands on the always limited resources in the D.C. 
appropriations bill. So today we will begin to discuss those 
funding needs by listening to testimony from the District of 
Columbia Courts and the Court Services and Offender Supervision 
Agency. Under the Capital Revitalization and Self-Government 
Improvement Act of 1997, of course, the Federal Government is 
required to finance the District of Columbia Courts and CSOSA.
    As I mentioned earlier today, I want to hear how the Family 
Court has used its fiscal 2002 funds and how it is planning to 
use its recently appropriated fiscal year 2003 funds. And as we 
discussed, these have been two very top priorities for both 
Senator Landrieu and myself.
    We would also like to learn what progress the Court is 
making in meeting its objectives of: (1) implementing one 
family, one judge; (2) hiring experienced and qualified 
judicial officers; (3) providing training for judges and all 
staff; (4) ensuring accountability of attorneys, judges, and 
staff; (5) providing better technology to cases; (6) initiating 
alternate dispute resolution; and (7) providing better 
facilities to provide a safe, family-friendly environment.
    The Courts have requested $193 million for fiscal year 
2004. This is $32 million more than fiscal 2003 enacted levels 
and $30 million more than President Bush's budget request. I 
would like to hear from our witnesses how the Courts plan to 
use these additional resources and how this increase will 
contribute to the success of the Family Court, as well as the 
operations of the Superior Court and the Court of Appeals.
    We are particularly interested to learn how the Courts' 
facilities plan will be implemented and the time line, the time 
line for completion of these important Capital projects. These 
Capital projects will play a key role in providing a safe, 
family-friendly environment, as required by the Family Courts 
Act.
    The Court Services and Offender Supervision Agency has 
requested $166.5 million for fiscal year 2004, which is an 
increase of $11 million over fiscal year 2003 enacted level and 
the same as the President's budget request. Again, we would 
like to hear how these additional resources will be used to 
further the agencies' mission and goals.
    Witnesses will be limited to 5 minutes for their oral 
remarks. Copies of your written statements will be placed in 
the record in their entirety.
    Let me now turn to the Ranking Member of the committee, a 
person who I have enjoyed serving with and the former chairman 
of this committee, Senator Landrieu.
    Senator Landrieu.


                 STATEMENT OF SENATOR MARY L. LANDRIEU


    Senator Landrieu. Thank you, Mr. Chairman. I am looking 
forward to working with you and starting out this year. And I 
welcome our witnesses this morning from our Federal agencies, 
particular the D.C. Courts, the Court Services and Offender 
Supervision Agency. You all represent the core of the 
District's appropriations bill and the center of our attention 
this morning.
    As you all know, the subcommittee and the whole Congress 
exercises a distinct function given the unique position of the 
District, not being a State and having a special designation as 
a district. We take that responsibility very seriously. And 
even with our limited resources, we are going to do our very 
best in that regard.
    I would just like to take a moment, Mr. Chairman, if I 
could, to briefly review some of the accomplishments of last 
year and then talk about one or two specific areas of promise 
that I see in the year ahead.
    First of all, I think the Chairman and I worked very well 
together to help the District to secure emergency preparedness 
funding in this very difficult time. Every study we have shown 
and both of our experiences on other committees, particularly 
my experience as the former chair of the Emerging Threats 
Subcommittee of Armed Services, leads me to believe that the 
District is, unfortunately, the No. 1 target in the United 
States for terrorism. The District of Columbia and New York 
continue, unfortunately, to hold that designation. And so this 
committee takes very seriously our responsibility in terms of 
continuing to try to support the District in its defenses 
against terrorism and standing up its emergency preparedness.
    Strengthening public schools and working with the District 
to promote more school choice through charters is something I 
believe that we made a major step and accomplishment in last 
year, particularly with the Chairman's help supporting our 
children and families and standing up this Family Court, as we 
now engage to see where we stand in that effort. That was truly 
an accomplishment, one we are proud of and one we look forward 
to continuing to work on as we strengthen the child welfare 
system in the District as it experiences great challenges, as 
does almost every major city, and in many communities in the 
United States.
    I also think, as the Chairman just mentioned, of our 
efforts, as much as we can be supportive, of revitalizing 
neighborhoods, particularly the Anacostia region with the 
revitalization of the river. And it is going to take a strong 
Federal commitment to help the District in that endeavor. But 
as the Chairman outlined, the economic benefits to this region 
are pretty substantial and quite exciting.
    So I am happy to be working in those four areas. I want to 
say publicly that I share the Mayor's goal of trying to 
increase this city's population. I would imagine that every 
mayor in the country would like to achieve the same, to have 
every city growing in its population, as opposed to decreasing. 
And I share his view that one of the keys to growth of a city 
is the strength and dynamic nature of a school system. And I 
look forward to working with him through this committee, 
perhaps, Mr. Chairman, piloting some real creative 
opportunities to encourage middle-class families to stay in the 
District. We can use the schools as a real centerpiece to 
neighborhood revitalization and economic development, as I 
think is appropriate and, along those lines, continuing to 
strive for excellence in all of our schools, and really want to 
commend the school board for their work in beginning their 
attempts at reforming special education.
    I mentioned our support of the Family Court. That 
commitment remains strong. And I would just like to say, 
though, on a more pointed note that I was concerned about--and 
I think the Chairman shares this concern--about the difference 
in the originally requested amount for the Courts and then the 
amount that we are considering today. The request for Capital 
construction was two-thirds less funding from the first 
documents that we saw until the hearing today.
    I think that in order for us to continue to build 
confidence in the Congress about the Courts' ability to go 
through this reform plan, to stand up these new buildings, that 
we have to be very careful.
    I am committed to working with you, as I have in the past 
as the Chairman of this committee, to ensure that every child 
in the District has access to justice before the court, and 
families are strengthened, not made more fragile by the system. 
I am committed to addressing the resources and management 
issues of the Family Court, so that we can continue to build 
confidence in our reform efforts.


                           PREPARED STATEMENT


    So with that, Mr. Chairman, I will submit the rest of my 
remarks for the record and thank you for conducting this 
hearing and I think that we have made quite a few 
accomplishments in the areas that I outlined and look forward 
to a very promising year to come.
    Thank you.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    I would like to welcome the witness from our Federal agencies, the 
D.C. Courts and the Court Services and Offender Supervision Agency 
(CSOSA). You are really the core of the D.C. Appropriations bill and 
the center of our attention. This Subcommittee exercises the ``State'' 
oversight function for the District, similar to how other cities and 
States interact.
    The D.C. Appropriations bill, under my chairmanship last year and 
continuing with Mr. DeWine, has charted a course to support targeted 
investments in the District. Congress is partnering with the District 
by enhancing security and emergency preparedness; strengthening schools 
and education standards; supporting Family Court and child welfare; 
revitalizing neighborhoods. These three areas support the D.C. Mayor 
Anthony Williams' goal to increase the population of the city by 
100,000 people in the next 10 years. People want good schools and 
dynamic, safe neighborhoods.

             ENHANCING SECURITY AND EMERGENCY PREPAREDNESS

    In fiscal year 2002 and fiscal year 2003 the Federal Government 
committed over $250 million to equipping and training D.C. first 
responders, creating a first-rate emergency response plan, and 
effective evacuation plan. Last year, Senator DeWine initiated an 
effort to preparing area hospitals to respond to bioterrorism, and I 
look forward to continuing this year.

             STRENGTHENING SCHOOLS AND EDUCATION STANDARDS

    The first accomplishment from fiscal year 2003, and most important 
in my mind, is the Federal investment in strengthening successful 
charter schools in the District and supporting school choice ($17 
million). The District is now increasing access to critical financing 
to help create great facilities. Now we must look to reforming 
management of schools and providing more technical assistance for 
facilities and best practices.
    This year I would like to explore with Chairman DeWine a 
partnership with the District to create ``community building charter 
schools''. These schools would be a model for educational advancements 
and really be a community center for the neighborhood.
supporting the family court in the district and reforming child welfare
    I am proud that this Committee ensured that the District received 
sufficient funding for the new Family Court. In fiscal year 2002 $23.3 
million was appropriated and fiscal year 2003 followed up with $29.6 
million for new staff and capital improvements. I do have some 
questions as to how the Courts have implemented the Family Court Act 
with these funds, but it is clear Congress has vigorously supported 
this new court.
    This year, I understand Chairman DeWine is interested in working on 
child welfare. I support this endeavor and believe we can use the 
District as a model for reforming the broken systems in so many other 
States (e.g. California, New Jersey). Recently, I was discussing how 
States are adhering to the Adoption and Safe Families Act (ASFA), and 
the District of Columbia was mentioned as a model for an excellent 
plan. Now, we must work on implementation and adequate resources.

                    REVITALIZATION OF NEIGHBORHOODS

    In fiscal year 2003 we invested in clean-up of the Anacostia River 
and development of parks and recreation ($55 million). The development 
of the waterfront spurs economic development and revitalizes 
neighborhoods, like SW Waterfront and former D.C. General Hospital 
campus. I will continue to make a priority of cleaning the river, 
creating beautiful parks and recreation opportunities, and revitalizing 
communities.
    In this hearing we will discuss the budget requests of the D.C. 
Courts and CSOSA. I am very concerned about the Courts' ability to 
budget and manage its resources. The Courts originally requested $293.2 
million for fiscal year 2004; then 2 days before the hearing, the 
Courts and GSA determined that two-thirds less funding than originally 
requested for Capital Construction would be necessary. The Courts' 
revised request reduced the Capital Construction request from $145.6 
million to $46.9 million. The total revised request is $194.5 million. 
The Senate has fought for additional funding for the Courts, especially 
to improve facilities. I am concerned that the Courts do not know what 
they need and don't know how to support the request. This approach is 
not helpful.
    I am committed to working hand-in-hand with the Courts and the City 
to ensure that every child currently in the system benefits from Family 
Court Reform and does not suffer the fate of too many children that 
have been failed. Committed to addressing resource and management 
issues of the Family Court and ensure funding is expended well.
    The mission of the Court Services and Offender Supervision Agency 
is varied, but the purpose is to ensure public safety while also 
helping District residents re-enter their community. CSOSA supervises 
approximately 15,900 offenders, 8,000 defendants at any given time. I 
commend CSOSA for reducing caseloads from over 100, before the 
Revitalization Act, to current levels of 56 cases under general 
supervision. Additionally, I encourage the investment to reduce 
caseloads further to 50 cases per officer in fiscal year 2004. I am 
also interested in the specific steps the agency is taking to 
minimizing recidivism, such as the drug treatment options and the 
Faith-based Initiative.
    I am particularly happy to see that the Public Defender Service is 
continuing your rigorous training program for court-appointed 
attorneys. I look forward to hearing about representation your agency 
provides to juveniles with disabilities in the delinquency system. We 
would appreciate your views on how the special education system serves 
delinquent juveniles.
    I appreciate your attendance today and look forward to your 
testimony. Thank you.

    Senator DeWine. Senator Landrieu, thank you very much.
    Let me introduce very briefly our first panel. Judge Wagner 
is the Chief Judge of the District of Columbia Court of Appeals 
and Chair of the Joint Committee on Judicial Administration. 
Accompanying Chief Judge Wagner for questions is Ms. Anne 
Wicks, Executive Officer of the D.C. Courts. We welcome both of 
you today. Thank you very much.
    The Honorable Rufus King is the Chief Judge of the Superior 
Court of the District of Columbia. Accompanying Chief Judge 
King for questions today is the Honorable Lee Satterfield, 
presiding judge of the Family Court of the Superior Court of 
the District of Columbia. We welcome both of you.
    We have received your written testimony. We would ask you 
just to summarize. And we would ask both of you to confine your 
opening statement to 5 minutes and just summarize what you 
think is the most important thing for us to know. As I have 
said, we do have your written statement, and we will take that 
into consideration. And then we will go to questions.
    Thank you very much.
    Judge Wagner.

                     STATEMENT OF ANNICE M. WAGNER

    Judge Wagner. Good morning, Mr. Chairman, Senator Landrieu. 
I want to first of all thank you for allowing us the 
opportunity to discuss the fiscal year 2004 budget request of 
the District of Columbia Courts. I am appearing as Chair of the 
Joint Committee on Judicial Administration which submits the 
budget and is responsible for that by statute.
    Of course, I can only highlight what it is that we want to 
do. But I think a backdrop is important. Unquestionably, we 
live in a new environment facing new challenges to our Nation, 
our Nation's Capital, and our court system. But whatever 
challenges we face, the fair and effective administration of 
justice remains crucial to our way of life in America.
    The District of Columbia Courts are committed to meeting 
these new challenges. We have been steadfast in our mission, 
which is to administer justice fairly, promptly, and 
effectively. At the same time, we have been enhancing our 
security systems and emergency preparedness activities in order 
to protect all people who come in our courts and to ensure 
continuity of operations in a challenging environment.
    We are undergoing significant changes to meet the 
challenges of new technologies and working to provide the 
Courts of the jurisdiction with a sound infrastructure. The 
Courts are committed to continued fiscal prudence and sound 
fiscal management. Through our strategic goals, the Courts do 
strive to provide fair, swift, and accessible justice, enhance 
public safety, and ensure public trust and confidence in our 
justice system.
    I wish to mention that we do appreciate the support that 
this subcommittee has given us, which makes possible the 
achievements of our goals for this community.
    To support our mission and strategic goals in fiscal year 
2004, the D.C. Courts submitted a request for $293 million for 
Court operations and Capital improvements. I hasten to add that 
we have alerted you that there may be a need to revise the 
Capital improvements request because of new developments with 
the General Services Administration.
    The original amount of our capital budget included the 
estimated full project costs, because we were originally 
informed by our partners, GSA, that full funding was required 
at the beginning of the projects. It is our understanding that 
this has been altered, the acquisition approach has been 
altered, thereby changing the cash flow requirements for the 
next fiscal year.
    It was only this past Monday that we were informed that we 
may no longer require full construction funding in fiscal year 
2004. Therefore, it is important for the Courts to have an 
opportunity to confer with GSA officials and determine the 
impact of these changes on the cost and the schedule of these 
projects in order to provide this subcommittee with the best 
information available. It would be helpful if you would permit 
us a very brief period to do that and then to get back to you 
on this particular aspect of our budget request.
    To build on past accomplishments and to support essential 
services to the public in the Nation's Capital, investment in 
technology, security, infrastructure, and strategic management 
are essential priorities in 2004. Only by investing in these 
critical areas will we be in a position to ensure that 
information technology is capable of meeting today's demands 
and that the type of security necessary to protect our citizens 
and our institution are in place and that our facilities are 
safe, healthy, and reasonably up to date.
    The D.C. Courts operate within four separate buildings in 
Judiciary Square. Maintenance and modernization to these 
buildings is quite costly. And the Courts' capital budget has 
not been adequate to meet these needs in the past. Fundamental 
costs to bring these facilities up to par have been quantified 
in a recently completed building evaluation report prepared for 
the Courts by the General Services Administration. The capital 
budget request would include funds to meet these needs.
    The capital budget request does reflect the significant 
research, analysis, and planning incorporated in the D.C. 
Courts' first-ever master plan for the D.C. Courts' facilities. 
In the master plan process, GSA analyzed the Courts' current 
and future space needs, particularly in light of the 
significantly increased space needs of the Family Court.
    The key element for meeting the Courts' space needs is the 
restoration of the Old Courthouse to house the D.C. Court of 
Appeals, which would move out of the Moultrie Building, thereby 
making additional space available in the Moultrie Courthouse 
for the Superior Court to accommodate the Family Court and 
other operations.
    I will only mention, and I will not even develop it, but 
just to say that in addition to our master space plan, on which 
we are prepared to answer questions, I should mention that our 
funding is directed toward enhancing public safety, investing 
in information technology, and investing in accurate and 
complete trial records. And you have the exact amounts that we 
are requesting for this. In addition, we have requested funding 
for attorneys who provide legal services to the indigents to 
increase their hourly rate to $90.

                           PREPARED STATEMENT

    I will conclude now, Mr. Chairman and Senator Landrieu. We 
have long enjoyed, at the District of Columbia Courts, a 
national reputation for excellence. We are proud of the Courts' 
record of administering justice fairly, accessibly, and in a 
cost-efficient manner. Adequate funding for the Courts' 
critical priorities in 2004 is essential if we are to continue 
to provide high-quality service to the community in the future.
    We do look forward to working with you throughout the 
appropriations process. And thank you for this opportunity to 
appear before you today. We will be prepared to answer your 
questions on the items that you mentioned.
    [The statement follows:]

                 Prepared Statement of Annice M. Wagner

    Mister Chairman, Senator Landrieu, thank you for this opportunity 
to discuss the fiscal year 2004 budget request of the District of 
Columbia Courts. I am Annice Wagner, and I am appearing in my capacity 
as the Chair of the Joint Committee on Judicial Administration in the 
District of Columbia and Chief Judge of the District of Columbia Court 
of Appeals. As you know, the Joint Committee is the policy-making body 
for the District of Columbia Courts. By statute, its responsibilities 
include, among others, general personnel policies, accounts and 
auditing, procurement and disbursement, management of information 
systems and reports and submission of the annual budget request to the 
President and Congress for our court system. We are a two-tier system 
comprised of the D.C. Court of Appeals, our court of last resort, and 
the Superior Court of the District of Columbia, a trial court of 
general jurisdiction, which includes our Family Court. Administrative 
support functions for our Courts is provided by what has come to be 
known as the Court System.
    On behalf of the D.C. Courts, the Joint Committee has submitted a 
detailed request for the budgetary resources essential to the 
administration of justice in fiscal year 2004. My remarks this morning 
will summarize the request and highlight our most critical priorities. 
With me this morning are Chief Judge Rufus King III, the chief judge of 
our trial court and a member of the Joint Committee, and Ms. Anne 
Wicks, the Executive Officer for the Courts and Secretary to the Joint 
Committee. We are prepared to answer questions concerning the budget 
request for the courts, along with Judge Lee Satterfield, the presiding 
judge of our new Family Court.

                              INTRODUCTION

    Unquestionably, we live in a new environment, facing new challenges 
to our Nation, our Nation's capital and our court system. Whatever 
challenges we face, the fair and effective administration of justice 
remains crucial to our way of life. The District of Columbia Courts are 
committed to meeting these new challenges. We have been steadfast in 
our mission, which is to administer justice fairly, promptly, and 
effectively. At the same time, we have been enhancing our security 
systems and emergency preparedness activities in order to protect all 
of the people who come to our courts and to ensure continuity of 
operations in a challenging environment. We are undergoing significant 
changes to meet the challenges of new technologies and working to 
provide for the courts of this jurisdiction a sound infrastructure. The 
Courts are committed to continued fiscal prudence and sound fiscal 
management. Through our strategic goals, the Courts strive to provide 
fair, swift, and accessible justice; enhance public safety; and ensure 
public trust and confidence in the justice system. We appreciate the 
support that this Subcommittee has given us that makes possible the 
achievement of these goals for this community.
    To support our mission and strategic goals in fiscal year 2004, the 
D.C. Courts submitted a request of $293 million for court operations 
and capital improvements. In addition, the Courts request $44,701,000 
for the Defender Services account. The operating budget request 
includes: $9,271,000 for the Court of Appeals; $85,800,000 for the 
Superior Court; and $52,520,760 for the Court System. Our original 
submission for capital improvements was in the amount of $145,621,000. 
This amount included the estimated full project costs because we had 
been advised by the General Services Administration (GSA), our partner 
for capital projects, that full funding was required at the beginning 
of the projects. It is our understanding that the GSA has altered its 
construction acquisition approach, thereby changing the cash flow 
requirements for the next fiscal year. It was only this past Monday 
that we were informed that GSA may no longer require full construction 
funding in fiscal year 2004. Therefore, it important for the Courts to 
confer with GSA officials and determine the impact of these changes on 
the cost and schedule of these projects in order to provide the 
Subcommittee with the best information available. It would be helpful 
if you would permit us a brief period for that purpose.
    The demands on the D.C. Courts require additional resources in 
fiscal year 2004. To build on past accomplishments and to support 
essential services to the public in the nation's capital, investment in 
technology, security, infrastructure, and strategic management are 
essential priorities. Only by investing in these critical areas will 
the Courts be in a position to ensure that information technology is 
capable of meeting today's demands; that the type of security necessary 
to protect our citizens and our institution are in place; and that our 
facilities are in a safe and healthy condition and reasonably up-to-
date. Focus on these capital areas is particularly critical now to meet 
each of these needs and to ensure that the quality of justice is not 
compromised.
    The Courts' fiscal year 2004 request is a fiscally responsible 
budget that continues to build on our achievements. We are particularly 
proud of our progress with a number of initiatives. These include:
  --Implementation of the District of Columbia Family Court Act of 
        fiscal year 2001 (enacted in January 2002). To date, the Courts 
        have developed a detailed implementation plan, hired nine new 
        magistrate judges, initiated space improvements, and 
        transferred the cases of more than 3,000 children to Family 
        Court judges committed to achieving permanent family 
        placements;
  --Initiation of the Integrated Justice Information System (IJIS) 
        project, a major capital investment, which will ensure 
        coordinated and efficient case processing and enhance court 
        operations. The IJIS project received a favorable GAO review 
        which included several useful recommendations currently being 
        implemented by the Courts;
  --Increased access to justice through community-based initiatives, 
        including the Criminal Division's Community Court and the 
        Domestic Violence Unit's satellite intake office in Southeast 
        Washington. I believe Chief Judge King will be providing more 
        information on these very important court community efforts.
  --Development of the first Master Plan for D.C. Courts Facilities, 
        which outlines the Courts' space requirements and provides a 
        blueprint for optimal space utilization, both short-term and 
        long-term;
  --Recognition of sound fiscal management practices, by receiving from 
        an independent audit firm, an ``unqualified'' opinion for the 
        third year in a row in accordance with OMB Circular No. A-133 
        (Audits of States, Local Governments and Non-Profit 
        Organizations);
  --Continued enhancements to the Courts' management of the Defender 
        Services account, through expeditious processing of payments to 
        attorneys representing indigent defendants, major revision of 
        the Courts' plan for the provision of indigent defense, and 
        assumption of responsibility for issuing payment vouchers to 
        CJA attorneys from the Public Defender Service to enable 
        accurate estimation of the Courts' future fiscal obligations;
  --Conclusion of an independent study of staffing levels by Booz, 
        Allen and Hamilton that provides data to facilitate the most 
        effective deployment of limited staff as well as a software 
        tool to assist in the determination of necessary staffing 
        levels; and
  --Expansion of court-wide strategic planning, business process re-
        engineering, and implementation of key aspects of the 
        Government Performance and Results Act (GPRA) to ensure that 
        the Courts address critical priorities and issues in a 
        strategic manner to achieve specific and measurable results.

              CRITICAL FISCAL YEAR 2004 BUDGET PRIORITIES

    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue facing the D.C. Courts 
is sufficient capital funding to address the Courts' critical space 
shortage and deteriorating infrastructure. Unless addressed, the 
functional capability of the Courts will decline and the quality of 
justice in the District of Columbia will be compromised. The Courts' 
fiscal year 2004 request addresses these requirements by:
    Investing in Infrastructure.--The D.C. Courts operate within four 
separate buildings in Judiciary Square. Maintenance and modernization 
to buildings of this age are quite costly, and the Courts' capital 
budget has not been adequate to meet these needs. Fundamental costs to 
bring these facilities up to par have been quantified in a recently 
completed Building Evaluation Report prepared for the Courts by GSA. 
The capital budget request of the Courts includes funds to meet these 
needs.
    The Courts' capital budget also reflects the significant research, 
analysis, and planning incorporated in the D.C. Courts' first-ever 
Master Plan for D.C. Courts' Facilities. In the master plan process, 
GSA analyzed the Courts' current and future space needs, particularly 
in light of the significantly increased space needs of the Family 
Court. A key element to meeting the Courts' space needs is the 
restoration of the Old Courthouse to house the D.C. Court of Appeals, 
thereby making additional space available in the Moultrie Courthouse 
for the Superior Court to accommodate the Family Court and other court 
operations.
    The restoration of the Old Courthouse is projected to total $84 
million. The centerpiece of the historic Judiciary Square area, the Old 
Courthouse is one of the oldest buildings in the District of Columbia. 
Inside the Old Courthouse, Daniel Webster and Francis Scott Key 
practiced law, and John Surratt was tried for his part in the 
assassination of President Abraham Lincoln. The architectural and 
historical significance of the Old Courthouse, built from 1821 to 1881, 
led to its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
structure is uninhabitable in its current condition and requires 
extensive work to meet health and safety building codes. Restoring this 
historic landmark will meet the urgent space needs of the Courts and 
preserve its rich history for future generations.
    The Courts' capital budget also includes a total of $52.3 million 
for the Moultrie Courthouse Expansion, additions planned for the south 
side (C Street) and Indiana Avenue entrance of the courthouse. The C 
Street addition will complete the facilities for the Family Court, 
providing a separate courthouse entrance for the Family Court, child 
protection mediation space, increased Child Care Center space, and safe 
and comfortable family-friendly waiting areas. The addition also will 
permit the consolidation of Family Court related operations, to include 
the Social Services Division (the District's juvenile probation 
operation) and District government social service agencies that provide 
needed services to families and children in crisis. A portion of the 
addition will meet critical space needs for Superior Court operations.
    Enhancing Public Security.--The main courthouse, the Moultrie 
Building, is one of the busiest in this city. It is reported that as 
many as 10,000 people come into this building daily. In order to 
address issues affecting the security of these thousands of individuals 
in the aftermath of September 11, 2001, the Courts request $1,025,413 
to finance additional operational security measures, and $6,500,000 in 
capital funding to finance facility security improvements.
    Investing in Information Technology (IT).--To achieve the Courts' 
goal of a case management system that provides accurate, reliable case 
data across every operating area and of making available appropriate 
data to the judiciary, the District's child welfare and criminal 
justice communities and the public, the Courts request $4,163,347 in 
operating funds in fiscal year 2004 for IT infrastructure enhancements 
and operational upgrades and implementation of the disciplined 
processes GAO recommends for the IJIS project. In addition, the Courts' 
capital budget request includes an additional $11 million to continue 
implementation of IJIS courtwide.
    Expanding Strategic Planning and Management.--To support long-range 
strategic planning and targeted organizational performance measurement 
and assessment at the Courts, $615,000 is requested for an Office of 
Strategic Management. This request would enable the Courts to build on 
the current strategic planning effort by coordinating enterprise-wide 
projects and enhancing the performance measurement capability of the 
Courts. The funds would finance performance management software, 
training of personnel, and staff to collect and analyze performance 
data, prepare reports, and perform strategic planning, and coordination 
function.
    Investing in Human Resources.--To help the Courts attract, develop, 
and retain highly qualified employees and address the projected 
retirement of a large proportion of our most experienced personnel (25 
percent of the Courts' workforce, and 50 percent of those in top 
management positions, are eligible to retire within the next 5 years), 
$675,000 is requested for succession planning, leadership development, 
and additional employee benefits.
    Serving the Self-Represented.--To enhance equal access to justice 
for the more than 50,000 litigants without lawyers who come to the 
courthouse each year, $1,212,000 is requested for staff and space to 
establish a self-representation service center. This initiative would 
use best practices and build on plans for informational kiosks, funded 
in fiscal year 2003, and very limited pro bono services currently 
available.
    Investing in Accurate and Complete Trial Records.--The Courts' 
fiscal year 2004 request includes $1,624,000 to improve the production 
of the record of court proceedings. Accurate and complete court records 
are critical to ensure a fair trial and to preserve a record essential 
for appeal to the highest level. The request includes $880,000 to 
enhance the Courts' digital recording capabilities in the Courts' 80+ 
courtrooms and $744,000 for 12 additional court reporters.
    Strengthening Defender Services.--In recent years, the Courts have 
devoted particular attention to improving the financial management and 
reforming the administration of the Defender Services accounts. For 
example, the Courts significantly revised the Criminal Justice Act 
(CJA) Plan for representation of indigent defendants and issued 
Administrative Orders to ensure that CJA claims are accompanied by 
adequate documentation and that highly qualified attorneys participate 
in the program. The Courts have assumed from the Public Defender 
Service responsibility for issuing vouchers to attorneys. This will 
enable the Courts to estimate more accurately program obligations and 
project budgetary requirements. The Courts request $88,000 in the 
fiscal year 2004 operating budget to build on these initiatives and 
exert greater management control over Defender Services.
    In the Defender Services account, the Courts have requested 
additional funds to increase the hourly rate for attorneys who provide 
legal services to the indigent. The first rate increase for attorneys 
in nearly 10 years, to $65/hour, was implemented in March 2002. In 
fiscal year 2004 the Courts request an increase from $65 to $90 an 
hour, to keep pace with the rate paid court-appointed attorneys at the 
Federal courthouse across the street from the D.C. Courts.
    Slightly over $16 million of the fiscal year 2003 enacted level for 
Defender Services was financed from the account's unobligated balance. 
Accordingly, the Courts request restoration of the base appropriations, 
as well as additional funding to finance the attorney compensation 
increase in fiscal year 2004.

                    APPROPRIATIONS LANGUAGE CHANGES

    In the fiscal year 2004 budget submission, the Courts request two 
language provisions to enhance their ability to serve the public in the 
Nation's Capital. First, the Courts request limited authority to 
transfer funds among our four appropriations to enhance financial 
management of the Federal Payment appropriation. This language is 
similar to the provision in the D.C. Appropriations Act, 2002, Sec. 
109(b) authorizing the District government to transfer local funds. 
Second, the request includes language to permit the Courts to appoint 
and compensate counsel in adoption cases to protect the rights of 
parents and children, to facilitate a careful examination of factors 
designed to ascertain the best interests of the child, and to ensure 
the finality and permanency of the adoption.

                               CONCLUSION

    Mister Chairman, Senators, the District of Columbia Courts have 
long enjoyed a national reputation for excellence. We are proud of the 
Courts' record of administering justice in a fair, accessible, and 
cost-efficient manner. Adequate funding for the Courts' fiscal year 
2004 priorities is critical to our success, both in the next year and 
as we implement plans to continue to provide high quality service to 
the community in the future. We look forward to working with you 
throughout the appropriations process, and thank you for the 
opportunity to discuss the fiscal year 2004 budget request of the 
Courts.
    Chief Judge King, Judge Satterfield, Anne Wicks, and I would be 
pleased to address any questions.

    Senator DeWine. Thank you. We will hold our questions until 
Judge King has a chance to give his statement.
    Judge King.

                          D.C. Superior Court

STATEMENT OF RUFUS KING, III, CHIEF JUDGE, SUPERIOR 
            COURT OF THE DISTRICT OF COLUMBIA
ACCOMPANIED BY LEE SATTERFIELD, PRESIDING JUDGE, FAMILY COURT OF THE 
            DISTRICT OF COLUMBIA

    Judge King. Thank you. Good morning, Chairman DeWine and 
Senator Landrieu. I appreciate the opportunity to join Chief 
Judge Wagner in presenting the D.C. Courts' 2004 budget request 
to the subcommittee and to review some of the Courts' 
accomplishments in the last year. At the outset, let me thank 
both of you and the subcommittee as a whole for your generosity 
with your time, your consideration, and the necessary funding 
for a number of shared objectives. It is a pleasure to have 
such a positive working relationship with the committee.
    I want to underscore all that Chief Judge Wagner said about 
the Courts' needs, especially regarding capital. To function 
effectively, and especially to implement the Family Court Act 
in a manner both timely and consistent with its highest 
purposes, the Court needs to have adequate facilities and a 
level of information technology that supports its efforts.
    I will review just very briefly a couple of things the 
Court has done. And then I will be happy to answer questions.
    On October 30, the Superior Court officially opened the 
first satellite Domestic Violence Intake Center in the Nation. 
This center allows domestic violence victims to seek protection 
in their own neighborhood without saddling us with the 
crippling cost of operating a duplicate court, by use of video 
technology. We can video transmit the appearance to the 
courthouse where the judge can act on the petition for a 
temporary protective order.
    Having reviewed with Court officials the very promising 
community courts in Manhattan and in Red Hook, New York, we 
have opened two such courts in the Superior Court, the first 
for minor misdemeanors and traffic cases. It takes all of those 
cases and seeks to resolve them at a first court appearance, 
reducing drastically the need for indigent defense funds for 
additional court resources and police overtime due to excessive 
court appearances.
    The other community court is one that is based in the Sixth 
Police District in Anacostia. It serves to address all of the 
misdemeanors arising in that jurisdiction with some very few 
exceptions. The Court has partnered with the D.C. Department of 
Employment Services, the Pretrial Services Agency, and others 
to fashion remedies which, again, address the causes, the 
underlying issues and causes, that bring people before a 
criminal court. That project, which is operating now on a pilot 
basis, is showing early promise of being very successful.
    In the Family Court, the Court has hired all of the new 
magistrate judges that were specified in the act. We have 
sought appointment of the three additional judges. They are now 
pending before the Senate. Judge Satterfield, working with 
Court officials and stakeholders, has overseen the transfer of 
more than 3,000 neglect and abuse cases back to judges within 
that court. He has established new rules, procedures, and 
attorney practice standards, which I signed into effect several 
weeks ago. He set up attorney panels for abuse and neglect 
cases, so that that bar will now be regulated and reviewed more 
carefully, held numerous training sessions for judges and 
magistrate judges, and a cross-training for judges, attorneys, 
social workers, and others involved in the Family Court 
operations.
    We have opened the Mayor's Services Liaison Center to 
increase coordination of services to children and families and 
make them more readily available. We have trained new judges 
and will continue to train new judges. And we have met all 
deadlines for reporting to Congress which are required under 
the act.
    We have begun implementing a policy of one family, one 
judge. A Family Court judge handling a neglect or abuse case of 
one family member also handles all cases involving that family 
relating to abuse, neglect, custody, guardianship, termination 
of parental rights, civil/domestic violence, post-adjudication 
juvenile cases, and adoption cases filed after June 2002. All 
other family matters involving that family will be heard by the 
same judge or team at the conclusion of the second phase of 
implementation, which is now in progress.
    The conversion to an integrated justice information system 
has advanced on schedule. We now are working with a contractor 
with the first segment set to go live in the Family Court in 
July of this year. That system will be compatible with all of 
the other city agencies, so that we can operate effectively 
with them. I have with me today Mr. Ken Foor, our IT director, 
in case there are any questions that go beyond my competence.

                           PREPARED STATEMENT

    The Family Court Act presents the Court with a rare 
opportunity to bring about better results for children and 
families in the District of Columbia, an opportunity that we at 
the Court enthusiastically welcome.
    Mr. Chairman, Senator Landrieu, thank you both for the 
opportunity to testify here today. We will be happy to answer 
questions.
    [The statement follows:]

                 Prepared Statement of Rufus King, III

    Good afternoon Chairman DeWine and Senator Landrieu. I appreciate 
the opportunity to join Chief Judge Wagner in presenting the D.C. 
Courts' 2004 budget request to the subcommittee and to review some of 
the Superior Court's accomplishments over the past year. At the outset, 
let me thank the subcommittee as a whole, and especially the Chairman 
and the Ranking Member, for their support of the Courts, our employees, 
and those we serve. You have been generous with your time, your 
consideration and the necessary funding for a number of shared 
objectives. It is a pleasure to have such a positive working 
relationship.
    I want to underscore all that Chief Judge Wagner said about the 
Courts' needs, especially regarding capital. To function effectively, 
and especially to implement the Family Court Act in a manner consistent 
with its highest purposes, the court needs to have adequate facilities 
and a level of information technology that supports its efforts.
    I would like to review some of the accomplishments of the Superior 
Court over the past year. We established a first-of-its-kind satellite 
domestic violence intake center; set up a community court to handle all 
minor misdemeanor and traffic cases; established a pilot community 
court for the Sixth Police District to address a broader range of 
crimes in a more holistic manner; and moved ahead aggressively to 
implement the Family Court Act. There is still a lot to be done in all 
these areas, but we have made great strides in making the Superior 
Court a more open, responsive, effective organization.

                    DOMESTIC VIOLENCE INTAKE CENTER

    On October 30, the Superior Court officially opened the first 
satellite Domestic Violence Intake Center in the Nation, in partnership 
with police, prosecutors, defense attorneys and victim advocates. The 
Center allows domestic violence victims to petition for a Temporary 
Protection Order (TPO) via web-camera to a judge in the courthouse; the 
judge then issues the TPO by fax. The Center is located in Southeast, 
where more than 60 percent of those alleging domestic violence reside. 
Victims are thus able to take the initial step towards protecting 
themselves--obtaining a TPO--in a location that is close and 
convenient. We hope that by encouraging more victims to come forward 
more quickly it will help prevent further violence.

        COMMUNITY COURT FOR MINOR MISDEMEANORS AND TRAFFIC CASES

    One of the goals of the Court's Criminal Division has been to 
address certain types of cases more comprehensively with less focus on 
processing of cases. Along with other court leaders, I visited and was 
impressed with New York's Manhattan and Red Hook Community courts. 
There and elsewhere across the country courts have modified criminal 
proceedings to see that services were provided, that community service 
was done in an effort to see the community ``paid back'' for the damage 
done to it, and to engage the court in an effort to reduce recidivist 
behavior. Criminal Division Presiding Judge Noel Kramer spearheaded 
this effort, working with prosecutors, police, defense attorneys, 
service providers, and the Downtown Business Improvement District. 
Together these groups established a courtroom in which defendants 
charged with ``quality of life crimes,'' such as panhandling or 
possessing an open container of alcohol, are given very real diversion 
opportunities on the first day--alcohol education, for instance--and 
possibly some community service, in exchange for which their case is 
dropped. This approach has sharply reduced the need for police 
appearances in the courtroom, more efficiently used indigent defense 
resources, and resulted in many fewer continuances of cases. The 
result: in our first year we saw a drop in the number of abscondances 
(no shows at court hearings, which lead to bench warrants) of over 50 
percent in traffic cases and nearly 45 percent in minor misdemeanors.

                         THE 6D COMMUNITY COURT

    In addition to her work with the D.C./Traffic Community Court, 
Judge Noel Kramer has also established on a pilot basis a community 
court. In consultation with the Metropolitan Police Department, and the 
U.S. Attorney's Office, the Court established a community court where 
Judge Kramer hears all phases--from arraignment to disposition--of all 
misdemeanors arising in the Sixth Police District. Judge Kramer and I 
as well other court officials have been to numerous crime-prevention 
and neighborhood meetings in the community to learn more about the 
concerns residents have, get ideas for how best to address the crime 
problems, and make them aware of what the court is doing. Judge Kramer 
has partnered with the D.C. Department of Employment Services, the 
PreTrial Services Agency and others to fashion diversion opportunities 
that provide an accused with alternatives to a life of crime and drugs. 
So far her work has received much praise--from all those involved in 
the criminal justice system and from the residents of 6D.

                      FAMILY COURT IMPLEMENTATION

    Judge Satterfield has led the Family Court through significant 
changes and overcome some significant obstacles in implementing the 
Family Court Act of 2001. The Family Court has overseen the transfer of 
more than 3,000 neglect and abuse cases back to judges within that 
court; establish new rules, procedures, and attorney practice 
standards; set up attorney panels for abuse and neglect cases; held 
numerous training sessions for judges and magistrate judges and a 
cross-training for judges, attorneys, social workers and others; 
received input from relevant stakeholders; opened the Mayor's Liaison 
Center to increase coordination of services to children and families; 
trained new judges; and met all deadlines in reporting to Congress as 
required by the Act.
    We have transferred substantially all the neglect and abuse cases 
that were in review status with judges outside the Family Court to 
judicial teams in the Family Court. All other cases will be transferred 
in time to meet the Act's guidelines. We have begun implementing a 
policy of ``one family/one judge''. Phase I is fully implemented, so 
that the Family Court judge handling a neglect case of one family 
member also handles all cases involving that family relating to abuse, 
neglect, custody, guardianship, termination of parental rights, civil 
domestic violence, post-adjudication juvenile cases, and adoption cases 
later than June 2002. The next phase will be to consolidate all other 
Family Court cases involving a family before that same judge, including 
divorce, mental health, pre-adjudication juvenile, and paternity and 
child support before the neglect judge or judicial team.
    The Family Court Act presents the Court with a rare opportunity to 
bring about better results for children and families in the District of 
Columbia. We at the court welcome this opportunity and are doing our 
best to implement the Act according to its letter and its spirit.
    Mr. Chairman, Senator Landrieu, thank you both for the opportunity 
to testify before you today. I am joined by my colleague Judge Lee 
Satterfield and we would both be pleased to answer any questions you 
may have.

                          CAPITAL EXPENDITURE

    Senator DeWine. Judge King, thank you very much.
    Judge Wagner, your news about the capital expenditure in 
the request is certainly disturbing. That is quite a shock. The 
progress in regard to the Family Court has always been 
predicated on several things, and one has been the capital 
restructuring and additional space. And we have always been 
told that, and everyone has always understood that. And now you 
are telling us that there is going to be apparently a major 
delay in that. So I am quite shocked by this, frankly, and 
very, very deeply disappointed. Maybe you can clarify what is 
going on. I am not sure that I fully understand what in the 
world is going on here.
    Judge Wagner. Senator, there is----
    Senator DeWine. This is like a bomb that was just dropped. 
I mean, do we have to bring in GSA and you and have a hearing 
together?
    Judge Wagner. Senator, first of all, let me say that there 
are two plans. One is an interim plan, which is essential 
because the major construction projects are multi-year 
projects. Secondly, the interim plan is on schedule. I think 
that Chief Judge King has photographs of the space as it is 
planned on an interim basis; and so that the Family Court is 
separate, as you had envisioned it.
    Long term, we had to go through a master plan phasing 
schedule. We are, as you know, working with a partner, which is 
the General Services Administration, which does these Federal 
buildings. That master plan phasing schedule is subject to a 
number of things that have to be done, including, I guess, the 
procurement processes to secure, first of all, the design, 
negotiate the award, plan a construction schedule, go through 
your National Capital Planning Commission.
    Now on Monday, it was just this past Monday that we learned 
that the approach to securing funding for the project might be 
different. That is, that you would not have to secure all of 
the funds in advance in order to go forward with alerting the 
public that you are interested in procuring services. And we 
were told that they would first want to get the design.
    But neither Judge King nor I have had an opportunity to sit 
down and talk with the officials at GSA to get a better 
understanding of how this will impact the long-term plan, 
which, by its very nature, is necessarily long term, because it 
does involve moving parts of our court which presently exist to 
other buildings on a temporary basis or on a long-term basis 
while they work on the various buildings in Judiciary Square.
    Chief Judge King might like to add something.
    Senator DeWine. Judge.
    Judge King. Two things: One, we are not going to delay 
implementation of the family bill. What will be determined by 
the outcome of our discussions with GSA and ultimately this 
committee is whether we do it in the facilities that I think 
all of us had in mind, or whether we are going to be operating 
in borrowed courtrooms and even temporary space somewhere that 
we have to do it. We will keep on schedule in implementing the 
substantive provisions of the act.
    That being said, we do have a longer-term plan. And if it 
would be of interest to you, I could step to the drawings and 
show you some things, just to show you how we plan to try to 
move the project along. That is at your pleasure. If not, I 
would be happy to just----
    Senator DeWine. Senator Landrieu said she would like to see 
that. That would be fine.
    Judge King. I would be happy to do that.
    Senator DeWine. Now let me just tell everyone, as far as 
our total time, we have a lot of ground to cover. We need to be 
out of this room by 10 minutes after 11:00. So we have 1 hour 
and 5 minutes.
    Judge King. I will take that as an indication to spend at 
least 45 seconds.
    Let me first--you are all, no doubt, by this time, familiar 
with the general map of the justice campus. You have it right 
there. If I might approach, that might----
    Senator DeWine. That will be fine.
    Judge King. I do not know if that is ever done. That is the 
way we do it in court.
    Senator DeWine. That will be fine.
    Judge King. I would ask to approach.
    Senator Landrieu. Approach the bench.
    Senator DeWine. Keep in mind you have an audience out there 
who might like to see some things as well though.
    Judge King. I will make it--if I can show you on your map 
there. The current facilities are in the Moultrie Building. 
Perhaps you could maybe even track it there. We are moving part 
of our operations, the landlord-tenant and small claims 
operation, to Building B. That is underway now. They are now 
doing the demolition there and beginning the construction. I 
think that will be occupied by October of this year.
    When that is done, the space that is vacated in the 
Moultrie Building will then be used to add three additional 
courtrooms and four hearing rooms to round out what we need in 
the Family Court. Although we do not have any detailed designs 
at this point, the architects have given us a sort of 
suggestion of the type of building we might look for for that. 
Again, at the end of the long corridor on the JM level in the 
Moultrie Building will be an entrance way, sort of a pavilion 
and an information center, which you can see across here, where 
all the clerks who would address any issue in Family Court will 
be located. So there will be one place that people come to do 
that. This is another view from that clerk station, looking 
back across to the one we just saw here.
    I will put these up on the outside over here.
    This is another here which shows the children's wing there, 
which will provide a children-friendly area, a whole host of 
things. And then over on the other side here will be the 
referral center where people can go for a referral for 
services.
    Farther along, the additions in space to the Moultrie 
Building that you heard about in Judge Wagner's testimony, this 
is a--again, it may not look exactly like this, because this is 
not a published diagram. They have not designed it this way. 
This is a quick computer mock-up of how it might look, the kind 
of things they are talking about doing with the building.
    So those are in the interim--the schedule is to have the 
construction on the Moultrie levels done and occupy them by 
October of 2004. And that will allow us to begin operating. The 
final construction of this, which will bring all of the 
functions back together, it is going to take a little longer. 
It is estimated at 2005 or early 2006.
    We are now operating in courtrooms outside the facility. As 
it is now, we have to operate in courtrooms in different 
buildings in order to----
    Senator DeWine. Well, I wonder if we could get back to--and 
I appreciate that, Judge. I wonder if we could get back, 
though, to the 2004 capital request, and what does this new 
information do to your capital request? It is my understanding 
that this is going to push it back; this new information is 
going to push back your construction date. And it is going to 
change, dramatically change, your numbers.
    Judge Wagner. Mr. Chairman, what I am informed is that the 
change that was mentioned on Monday will change the dollars, 
when the dollars are needed. It does not actually change the 
construction schedule. This is what I am informed. But again, 
neither of us have had an opportunity to sit down with the GSA 
officials. And that is what we would like you to give us an 
opportunity to do.
    The second thing I want to make sure that is clear is that, 
as Chief Judge King said, the Family Court construction is 
fully on schedule. And major renovation on the JM level will be 
completed by the fall of 2004. So if we get an opportunity to 
sit with GSA, we are going to provide you with a full and 
complete presentation on the impact that the change in the 
funding stream----
    Senator DeWine. Okay. Well, I am hearing two things. I am 
hearing one thing is that you need to get back to us, which is 
fine. And we need that, you know, sooner rather than later, 
because we need the dollar figures as far as what your request 
is.
    Judge Wagner. Exactly.
    Senator DeWine. But I am also hearing from Judge King that 
this will change your plan with the Family Court. I thought I 
heard Judge King say that we will stay on the same schedule 
with the Family Court. Basically, we will move in a different 
direction. We will fulfill the obligation of the Family Court. 
Instead of doing it the way we wanted to do it with basically a 
more permanent long-term plan, we are going to go in another 
direction.
    Now is that not what I heard, Judge King?
    Judge King. No. If I gave that impression, I perhaps 
misspoke. We will keep schedule by doing temporary arrangements 
that will allow us to continue to move. We do not plan to 
change the ultimate direction.
    Senator DeWine. Well, but temporary arrangements always 
cost money.
    Judge King. That is exactly true.
    Senator DeWine. That is always a waste of money.
    Judge King. That is exactly true.
    Senator DeWine. And we do not have--you do not have the 
money to waste is the problem.
    Judge King. That we have, of course, no control over. The 
two sources of----
    Senator DeWine. Well, maybe we do.
    Judge King. The two sources of difficulty that we see is: 
If we delay the access to funds, it can have--it can lead to 
two sources of delay. First, the--putting out the bids for the 
actual construction has to be done when it is known that there 
is money available. Otherwise you cannot really work the 
market, as I am told. And you cannot really--you cannot have a 
solid bidding process.
    The other thing is that a lump sum that seems unpalatable 
now is going to get worse if, by not putting funds into the 
project this year, you wait until next year when other parts 
come due. So it is sort of like if you have a gas bill due 
today and you do not pay it and you wait until next month, now 
you have two gas bills to pay. And it is just a bigger lump.
    So we are watchful about those processes. But what I wanted 
to assure you is that we will do the best we can however this 
funding issue is resolved. We will keep the schedule to operate 
the Court. Obviously, I would like to have all the money on 
schedule and be able to do exactly what----
    Senator DeWine. Well, I am going to turn this over to 
Senator Landrieu at this point. It seems to me that, out of 
necessity, we are going to have to have another hearing on the 
capital issues.
    So, Senator Landrieu.
    Senator Landrieu. Okay. Thank you, Mr. Chairman.
    There seems to be some confusion, and maybe it is 
warranted. But let me just review what was my understanding. 
And maybe there was a different view by the Chairman or maybe 
by the panel. But I thought that we were in the beginning of 
engaging on a master construction plan, one that would use the 
current building that everyone is in for the Family Court and 
move some of the judges to the Old Courthouse, the other judges 
to that building because it is empty, and it is a beautiful 
building and most certainly worthy of being preserved. But it 
takes a long time. And so we were always going to have some 
sort of temporary transition time.
    The problem is that there were some dollar figures 
associated with that, and they have seemed to change. And there 
is some confusion. And maybe that is because the GSA decided 
recently that not all the money was necessary up front, which 
actually, Mr. Chairman, is good news, if we can spread it out 
over several years instead of having to come up with such a 
large chunk in the beginning.
    Now I had expressed a year ago the concern that I did not 
think that the Chairman and I, after putting so much effort 
with you and with your help and your full cooperation and your 
great skill, having to reform the Family Court, we did not want 
it to basically be the last to come on line. We wanted to make 
sure that the reforms that we had helped to implement would go 
into effect as soon as possible, whether in temporary quarters 
or whether in the current quarters while construction was 
ongoing. In other words, we did not want the Family Court to be 
last on the totem pole.
    Am I hearing that what I have outlined is still pretty much 
the direction that we are going in, right, or has that changed? 
Because if that has changed, then I am as confused as the 
Chairman is.
    Judge Wagner. Well, I think that that is the direction we 
are going in. And secondly, the interim plan is designed to 
mesh with the long-term plan and minimize waste. On the time 
schedule for the overall, the long-term plan, the Moultrie 
Court expansion would be the first--well, would be nearly the 
first online in terms of the permanent planning. There is a 
chart over there; and I am not sure if you can see it.
    Senator Landrieu. We have it. We have it here.
    Judge Wagner. But we----
    Senator Landrieu [continuing]. And it indicates that the 
modernization of the Old Courthouse with the garage would be 
first and then the interim building plan for the Moultrie you 
said, maybe then the traffic piece will be completed, then the 
Moultrie Building comes on. And it will be maybe substantially 
completed by 2007.
    Judge Wagner. Yes.
    Senator Landrieu. Now, of course, we would all like to see 
that pushed up, if possible. But I understand the complications 
of dealing with permitting and sites and designs and selection 
of architect.
    Judge Wagner. That is correct.
    Senator Landrieu. It just takes a very long time. But while 
that is all going on, I think what Senator DeWine and I are 
saying is: Let us make sure the reforms of the operations of 
the Court, the cases, the intensive case management is 
happening in whatever space Judge Satterfield has available. 
And I think we would like to help you, you know, along that 
route, realizing it's complicated. The final point I want to 
make on this is: if that is our understanding, then I think 
that nothing substantially has changed, except the good news 
that we do not need all the money up front, and we can spread 
it out, which I think is very, very good.
    But the other point is--and I realize that the designs that 
you showed us are not final. But I will express this once more 
publicly, how important I think it is for this Family Court to 
take the opportunity that is not quite afforded to other Family 
Courts, whether it is in Cleveland, Ohio, or New Orleans, 
Louisiana, where we are both familiar with this current state 
of our Family Courts; but to take the opportunities of the 
advantage that is just inherent in being the Family Court of 
the District, to become a real showplace for the Nation. Why? 
Because almost every lawyer in the country comes to the 
District once a year. Why? Because almost every judge in the 
country comes here. Almost every judge comes here, for various 
reasons.
    Almost all the case workers come here, either for 
conferences or on the course of their career several times. I 
would like this Family Court, and I think the Chairman shares 
this view, to be a real showcase of what a state-of-the-art 
Family Court should look like.
    Now the pictures shown to me, and I do not mean to micro-
manage this, but I want it, in my vision, to be a place where, 
first of all, families feel welcomed, and families feel safe, 
and families do not feel intimidated; to think about the 
customers that we are serving.
    I do not think it necessarily should look like a college 
campus or a Supreme Court or a cold vision. I think it should 
be as warm and as inviting and as unintimidating and as 
empowering to the families that enter it as possible. That is 
all I am going to say about it. I am going to leave it up to 
the professionals to do it.
    But since we are the ones supporting the funding for it, I 
think that, having talked to some of the judges around the 
country and some of the caseworkers, et cetera, they would want 
me to express how strongly they feel about a place where 
children do not feel intimidated and where they get the 
immediate idea that ``The Government is on our side to try to 
make the best decisions for this child.'' And that is what I 
would like the architecture to communicate.
    I am finished.
    Senator DeWine. Let me just say this, because I want GSA to 
clarify exactly what they are going to do and what they are 
going to require and what they are not going to require, 
because I am not aware that GSA has changed their policy in 
regard to having all the money up front. They have not told me 
that. They have not told my staff that. Now maybe that is a 
change in plans and change in policy.
    But what they have told us is that they have to have all 
the money up in 2005. So we will see. They told me that, God 
bless them. And that would be good. But we will move on.
    Judge King. It does not change--and I think we should be 
very clear, it does not change our goal or our plan to 
implement the bill in the best way we know how and----
    Senator DeWine. Yes. Well, it makes it a lot easier for us 
if we do not have to have all the money in 1 year, I can tell 
you that.
    Judge King. Right. Of course. And I would say that----
    Senator DeWine. But we will find out.
    Judge King [continuing]. What Senator Landrieu just said, 
as well as any of us could say it, is what the goal is, what we 
consider the goal to be. For example, we have initiated 
discussions with the school system to set up a program for 
kids' art to be available to the courthouse so that we can 
decorate the family areas with art from the D.C. schools. But 
we are going to be looking at all those kinds of details to 
make it feel family-friendly.
    Senator DeWine. Okay. Another hearing, capital.

                           CHILDREN ADOPTIONS

    Let me move to another area. Lashawn v. Williams requires 
that legal activity to free a child for adoption should be 
initiated within 30 days after the child's permanency goal has 
been determined to be adoption. However, in the September 2002 
monitor's report on the progress of the District's Child and 
Family Services Agency, the performance standard of legal 
activity to free children for adoption not only was not met, 
but the percentage of children who did receive timely 
initiation of legal activity decreased from 65 percent in May 
2001 to 59 percent in May 2002. Let me ask you what you think 
is the source of this shortcoming.
    And let me also ask, as judges, you are in the position to 
hold child welfare workers in contempt for not doing their job. 
Let me ask what your plans are to ensure these children can be 
offered up for adoption in a timely manner. Where are we?
    Judge Satterfield. I think I can answer that.
    Senator DeWine. Sure.
    Judge Satterfield. Let me answer that question for you 
regarding the adoptions. Part of the slowdown in adoptions last 
year was due to the wonderful tax credit that is going to be 
provided to families this year. At the end of last year, we had 
a number of parties who wanted us to slow the process down so 
that they can benefit from an adoption agreed issue and the tax 
credit that will be provided.
    Senator DeWine. Now how are we doing this year then?
    Judge Satterfield. Well, I think we are going to be on 
target to meet what we have met in the past. I am going to 
have--I do not have the exact numbers from what we have done 
from January to March. I can get that for you. But I know that 
the slowdown from last year was partly due to that. I only say 
partly because there are other problems that exist in that 
process, some of which you are trying to address in the Family 
Court Act with the ICPC, Interstate Compact Act, always 
presents a problem.
    A lot of our cases are children who are placed with 
families in Prince George's County, Maryland. And we have 
substantial problems sometimes getting that process and getting 
those approvals. We have instances where the city is going to 
provide adoption subsidies to families, but the determination 
as to whether they are in ICPC status is based on the financial 
ability of the family to take care of the child absent the 
adoption subsidy that was going to be provided. And that slows 
those cases down.
    We are working with the agencies so they can better locate 
parents who are missing, so that we can move the process along 
in their diligent search. And then the FBI clearances--and I 
understand why the FBI is quite busy now--have presented a 
problem with a slowdown. And that is what the agency is trying 
to work on, to get better access to the FBI clearances and 
faster access. All those contribute to that.
    Senator DeWine. I understand all that. But your first 
reason I am not sure is valid, because the question is not how 
many adoptions. The question was whether legal activity to free 
a child for adoption should be initiated within 30 days after 
the child's permanency goal has been determined. That is not 
something that the parent does, the prospective parent, is it?
    Judge Satterfield. Well, no.
    Senator DeWine. The agency does that.
    Judge Satterfield. Well, to initiate the adoption 
proceeding has to be done by the petitioner, the lawyer. The 
judges require that they go forth with the adoption once the 
goal of adoption has been made in the case. And then they 
monitor that process to make sure that that is carried out by 
having frequent hearings to make sure that is done.
    Senator DeWine. Well, I am not going to play lawyer with 
you, but I am not satisfied with the answer. But all right.
    Senator Landrieu. Can I just follow up?
    Senator DeWine. Go ahead.
    Senator Landrieu. Let me just add something that might 
clarify it, because Senator DeWine will remember because he was 
such a strong supporter of what we tried to fix in Congress 
which was the unintentional, but serious, consequence of 
passing an adoption tax credit that basically was available for 
infant adoptions, but not for special needs adoptions.
    And for 2 years in Congress, we struggled to make it clear 
that our intention was to provide the $10,000 tax credit for 
special needs. And we worked very hard, I must say, in the 
Senate in a bipartisan way. But that effort was stopped in the 
House.
    So I share your pain, because I can most certainly 
understand a family on the verge of adoption needing and being 
entitled to the credit that we intended them to get. But 
because of our--I would not say it was a mistake. It was 
unfortunately intentional on the part of some members of 
Congress to not have those go into effect at the same time. It 
put a--it caused that situation to exist.
    Luckily since January of this year, it is finished because 
they are all--now there are tax credits for all adoptions, not 
just for infant adoptions, but for special needs adoptions, 
domestic, and international. So that problem should be erased.
    The other problem I want to share your pain with--and, 
Senator DeWine, some of this is the Court and under their 
control, but some of it is the way the Federal law is, which I 
think needs to be changed and actually, I am working on a bill 
right now to change these laws, because the subsidies in the 
funding are not following the decisions of the Court as 
streamlined as is necessary. The Federal funding structures are 
really inhibiting the faster placement of children through 
adoption. And it would take me a long time to actually explain 
that. But just trust me, because I have studied it enough.
    So part of it is our problem, and let me just admit that. 
And then part of it, I think, is, you know, lack of resources 
and perhaps some management, some management issues. But I will 
say for the record that I am hoping to lead an effort--and I 
know that the Senator will be supportive--of trying to get 
these funding streams basically lined up. So if a judge makes a 
decision--and I will just finalize this: If a judge says in 
this country, ``Reunification is what we want for this child,'' 
the funding follows that decision.
    If the judge says temporary foster care, the money follows 
that. If the judge says adoption is the permanency plan, then 
the Federal funding follows it. But we are a long way from 
getting to that point to where we are today. It is going to 
take some time, but we are working on it.
    Senator DeWine. Let me just say that Senator Landrieu is 
absolutely right. There is a lot that we have to do. I do not 
want to belabor the point, Mr. Satterfield. But all I was 
saying, and it is a minor point, all I am saying is, the 
initiation to release a child to be eligible for adoption is a 
different thing from the filing of the adoption procedure. That 
is all I am saying. That is a responsibility of the Court. It 
is not the responsibility of the parent. It is the action to 
make the child eligible for adoption.
    Judge Satterfield. Can I respond? As I understand your 
question, you are talking about the filing not of adoptions, 
but of terminations.
    Senator DeWine. That is correct. And your answer to me was, 
``We did not do that because the parents did not want us to 
move ahead because they wanted to get this tax credit.'' And I 
am saying that is your responsibility to make the child 
eligible for adoption. And that is not a correct answer.
    Judge Satterfield. I did not understand your question, and 
I am sorry for that. But as I understand, your question now is: 
What are you doing in terms of filing a termination----
    Senator DeWine. Why did you not file it?
    Judge Satterfield [continuing]. Of parental rights----
    Senator DeWine. Right.
    Judge Satterfield [continuing]. In order to do that? I 
thought we were talking--so I did not understand the question. 
That is why I gave the answer to a question I thought you 
asked, but obviously you did not.
    Senator DeWine. Okay. Okay.
    Judge Satterfield. But in terms of terminating parental 
rights, there has been an increase in the Court in the filings 
of terminations of parental rights, because the Government 
agency, the Office of Corporation Counsel, now recognizes that 
it is their responsibility to do that in those cases that 
warrant it, and they are filing those cases. We have 
consolidated those cases with a neglect judge handling the 
case. We expect that number to go up. And we are addressing 
that number.
    We are monitoring the Office of Corporation Counsel to make 
sure that they file those motions. And we are doing that in our 
review hearings with them.
    Senator DeWine. So the figures that I cited, of course, are 
old figures in the sense that they were up to May of 2002.
    Judge Satterfield. Well, I think you cited some----
    Senator DeWine. What you are telling me is the figures are 
better now.
    Judge Satterfield. Well, they are going to be better 
because they were not filing any of those motions in the past, 
and now they are starting to file those motions. Part of the 
reason they did not file those motions is that it was more 
efficient for us to do the terminations through the filing of 
the adoption case, because it avoided certain appellate 
circumstances and the delay in appeals. But now they are 
complying with the statutory mandate and filing those motions a 
lot more quickly than they used to, because they were not being 
filed by the office at all.
    Senator DeWine. Okay.
    Anything else you want to get into?
    Senator Landrieu. I think I will pass on the questions. I 
have gotten explanations for what I was concerned about. Well, 
maybe just one. I wanted to go back, because I know we are 
short on time.

                           DOMESTIC VIOLENCE

    Judge King, you said something about a new intake system 
for domestic violence. Would you take a minute to elaborate on 
that? Because I think it is a very important issue. And so many 
of our jurisdictions around the country are really making some 
great strides in terms of reaching out to victims of domestic 
violence and realizing that it itself is a core of many of the 
problems, in terms of fragile families and child self-esteem. 
And of course, the abuse experienced directly by the victim in 
most instances, in 99 percent of the cases, is the woman.
    So could you just give me a one minute explanation of 
exactly what you are talking about, to make it easier for the 
victims to show that they are truly victimized, give the courts 
expedited either video or testimony so that either restraining 
orders can be issued or action taken against the abuser?
    Judge King. Yes, I would be happy to. Just very quickly, we 
are in our sixth year of operating the domestic violence unit, 
which, when it was organized, was a model in the Nation with 
two or three others. It brings all of the cases that are 
related to a domestic violence issue in before one judge and in 
one branch of the Court.
    What we found at the time, was that it reduced the number 
of places that a victim had to go to tell her story, usually 
hers, from 19 down to 1. So we made a major accomplishment in 
simplifying that process. We have advocates and advisors 
available to them at an intake center at the courthouse.
    What we found was that a large number of the victims and 
those complaining of domestic violence were in Anacostia, which 
meant that they have to take a bus and a cab, and it is 
expensive and difficult. And they have to make childcare 
arrangements and so on. So we opened a satellite unit, which 
has some of the staff. It gets prohibitively expensive unless 
you are in New York, where you have a million people everywhere 
you look. But we have some of the staff there to handle the 
intake, to do some of the advising, to give them a sense of 
what they can and what they need to do.
    And also, we have a teleconferencing set up so that they 
can go to a studio in--it is actually located in the Greater 
Southeast Hospital facility. They go to a studio there, go on 
the television. A judge sitting at the courthouse can confer 
with them just as we are doing now, just with a camera, and can 
sign a temporary restraining order and fax it back to them. So 
they can go to their neighborhood location, pick up the order 
and leave and get it served.
    We have even had the good fortune of having that turn out 
to be a convenient place for police officers to get warrants 
signed. So they are piggy-backing on the domestic violence 
operation, which means that there is, without any expense to 
anybody, there is pretty good security supplied there, because 
police officers are coming and going to get warrants signed.
    Senator Landrieu. Well, let me just briefly commend you for 
that. I just think it is just an extraordinary step, and will 
do what I can. And I know that our committee will support your 
efforts, because it is a very serious epidemic in this society. 
And it is not just limited to certain neighborhoods. It is 
throughout the city.
    And as you noted, resources are limited. We could not do 
this everywhere. But I just cannot tell you how much I 
appreciate that and look forward to learning more about it so 
that we can support it.
    It is one of the goals of my public career to get the legal 
system in this country to support the victim and not the abuser 
from the moment that it starts to the moment that it ends. And 
whether it is helping the victim, you know, to stay in the 
home, to protect the children, and have the abuser suffer the 
consequences of abuse--and too often, our legal system and our 
court system puts the burden on the one who is abused, which 
makes no sense whatsoever. The burden should be on the abuser.
    So I will look forward to working with you. And also, 
counseling the abusers for those who can be rehabilitated. Not 
in every case are we successful, but we should, of course, try 
to reach out to the abusers as well appropriately.
    Thank you.
    Senator DeWine. Well, we thank you all very much. And we 
look forward to continuing to work with you, particularly in 
regard to the Family Court. And we will try to have a hearing 
sometime that is convenient for you all, sometime within the 
next 2 weeks, where we can bring GSA in and bring you in and 
see where we are.
    Thank you very much.

             Court Services and Offender Supervision Agency

STATEMENT OF PAUL A. QUANDER, JR., DIRECTOR
    Senator DeWine. Let me invite our second panel to come up. 
And as you are coming up, I will introduce the second panel.
    The Honorable Paul Quander is the Director of the Court 
Services and Offender Supervision Agency. Mr. Ronald Sullivan 
is the Director of the Public Defender Service for the District 
of Columbia.
    We welcome both of our witnesses and thank them for joining 
us here today. We have received their written testimony. We 
would invite them both to summarize their testimony and spend 
maybe about 5 minutes each, if you could. And we will start 
with whoever wants to start and invite you to go ahead. And 
then we will have the opportunity to have some questions. You 
can flip a coin or whatever.
    Mr. Quander. We just did.
    Senator DeWine. All right. Very good.
    Mr. Quander. Good morning, Mr. Chairman, Senator Landrieu.
    Senator DeWine. I am not sure that is on. Push the button, 
and if it lights up, it is on.
    Mr. Quander. All right. We will try it again. It is on now.
    Senator DeWine. All right. Very good.
    Mr. Quander. Good morning, Chairman DeWine. And good 
morning, Senator Landrieu. I am Paul Quander, the Director of 
the Court Services and Offender Supervision Agency. Thank you 
for the opportunity to appear before you today in support of 
the fiscal year 2004 budget request of the Court Services and 
Offender Supervision Agency for the District of Columbia, or 
CSOSA.
    As you know, CSOSA includes the Pretrial Services Agency, 
PSA, which provides supervision for pretrial defendants. The 
Community Supervision Program supervises convicted offenders on 
probation, parole, or supervised release. Our fiscal year 2004 
request reflects our desire to continue implementing the 
initiatives we have previously presented to you. We strive to 
allocate resources strategically and effectively so that we can 
achieve the greatest possible benefit to public safety.
    At any given time, CSP supervises approximately 15,000 
offenders. PSA supervises or monitors approximately 8,000 
defendants. With both populations, our highest priority must be 
to close the revolving door that leads too many people through 
repeated incarcerations and periods of supervision. Through 
accountability, intermediate sanctions, treatment, education, 
and employment, we are striving to increase the percentages 
more every year by reducing re-arrest and recidivism among our 
population. In the 6 years since CSOSA's establishment as 
trustee and the 3 years since certification as an independent 
Federal agency, we have achieved a number of significant 
milestones. With fiscal year 2003 and fiscal year 2004 
resources, we expect to meet our target caseload of 50 general 
supervision offenders per community supervision officer. We 
have opened 6 field units to locate our offices in areas of the 
city with high concentrations of offenders, including our 
newest office at 25 K Street, Northwest.
    Since fiscal year 2000, we have increased by 116 percent 
the number of offenders drug-tested every month. We have placed 
over 3,500 defendants and offenders in contract treatment in 
fiscal year 2002. Our multi-denominational faith community 
partnership embraces more than 25 member institutions. And our 
volunteer mentor program has matched more than 80 returning 
offenders with individuals who are committed to helping them 
stay out of prison.
    Our fiscal year 2004 CSOSA requests direct budget authority 
of $166,525,000 and 1,357 full-time equivalent positions. Of 
this amount, $103,904,000 is for community supervision 
programs. $34,411,000 is for the Pretrial Services Agency. And 
$25,210,000 is for the Public Defender Service. The District of 
Columbia Public Defender Service transmits it budget request 
with CSOSA's.
    CSOSA's fiscal year 2004 budget request represents an 8 
percent increase over fiscal year 2003 funding. Most of that 
increase is attributable to adjustments to base that will 
enable the Community Supervision Program to fully fund 
community supervision officer positions to be filled in fiscal 
year 2003. These positions are essential to achieving our 
target caseload ratio. The Community Supervision Program 
increase also includes funding to implement our Reentry and 
Sanctions Center Program, which is based on our current 
Assessment and Orientation Center, or AOC.
    In fiscal year 2002, CSOSA received $13 million and an 
authorization for 89 positions to expand the AOC located at 
Karrick Hall on the grounds of D.C. General Hospital. In 
September 2002, CSOSA signed a 10-year lease with the District 
of Columbia for the continued use of Karrick Hall. The planning 
work is completed, but renovation has been delayed pending 
approvals required by the District Government.
    The Assessment and Orientation Center provides a 
residential placement for high-risk defendants and offenders 
with extensive criminal histories and severe substance 
problems. Among offenders who complete the program, re-arrest 
decreased by 74 percent in the year following completion. Since 
its inception, almost 900 defendants and offenders have 
benefitted from this program. This program is targeted directly 
at the 30 percent of our population who are most likely to 
recidivate. And so we believe it is essential to achieving our 
public safety mission. We request $3,104,000 to expand the 
Assessment and Orientation Center to a full-fledged reentry and 
sanctions center bringing one additional unit online for a 
total of 39 beds.

                           PREPARED STATEMENT

    The Pretrial Services Agency also has one new initiative 
focusing on enhanced supervision. Since the D.C. Department of 
Corrections closed their Community Corrections Center Number 4, 
additional defendants are being released to the community and 
are being monitored by Pretrial Services officers. The impacts 
of this have been considerable. To mitigate the stress this has 
placed on the Pretrial Services general supervision staff, the 
Pretrial Services Agency requests $224,000 to provide vendor 
management of the agency's electronic monitoring program.
    Thank you again for the opportunity to appear before you 
today. And I will be happy to answer any questions that you may 
have at the appropriate time.
    Senator DeWine. Thank you very much.
    [The statement follows:]

               Prepared Statement of Paul A. Quander, Jr.

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today in support of the fiscal year 
2004 budget request of the Court Services and Offender Supervision 
Agency for the District of Columbia, or CSOSA. As you know, CSOSA 
includes the Pretrial Services Agency (PSA), which provides supervision 
for pretrial defendants. Convicted offenders released into the 
community on probation, parole, or supervised release are supervised by 
the Community Supervision Program (CSP).
    Today marks my first appearance before you as CSOSA's appointed 
Director. In my first 6 months with the Agency, I have come to 
appreciate both the complexity of what we are trying to accomplish and 
the level of support we have received from Congress as we build our 
capabilities. We greatly appreciate the increased resources we have 
received since the Revitalization Act was passed in 1997. Our fiscal 
year 2004 request reflects our desire to continue using those resources 
effectively and strategically to fully implement the initiatives we 
have previously presented to you.
    At any given time, CSP supervises approximately 15,000 offenders; 
PSA supervises or monitors approximately 8,000 defendants. To CSOSA, 
these individuals present the dual challenges of community corrections: 
reducing risk to public safety while, at the same time, helping 
thousands of our city's residents to turn their lives around through 
drug treatment, educational services, and job placement. We believe 
these challenges complement each other; we strive not only to hold 
offenders and defendants accountable for their actions, but to provide 
opportunities that assist them in developing a different, more 
successful way of life.
    While more than 85 percent of arrests in the District of Columbia 
did not involve offenders under our supervision, our highest priority 
must be to close the ``revolving door'' that leads too many people 
through repeated incarcerations and periods of supervision. To achieve 
that priority, CSOSA allocates resources to four strategic objectives, 
or Critical Success Factors: Risk and Needs Assessment, Close 
Supervision, Treatment and Support Services, and Partnerships. Slightly 
less than one quarter of our budget is allocated to Risk and Needs 
Assessment, about one quarter to Treatment activities, and half to our 
front line Close Supervision activities. Partnership activities receive 
5 percent of funding. We believe that success in these four areas will 
enable us to achieve our mission of public safety and service to 
criminal justice decision makers.
    In the 6 years since CSOSA's establishment as a trusteeship, and 
the 3 years since certification as an independent Federal agency, we 
have achieved significant progress toward realizing these objectives. 
Our milestone achievements include the following:
  --Both the Community Supervision Program and the Pretrial Services 
        Agency have implemented automated case management systems that 
        will greatly improve data quality and officer effectiveness.
  --We have implemented comprehensive risk assessment for offenders and 
        are now expanding our case planning protocol to include uniform 
        needs assessment.
  --With fiscal year 2003 and fiscal year 2004 resources, we expect to 
        meet our target caseload of 50 general supervision offenders 
        per officer.
  --We have opened six field units to locate our officers in areas of 
        the city with high concentrations of offenders, including our 
        newest office at 25 K Street. A seventh field location at 800 
        North Capitol Street will come on line in the next few months.
  --Since fiscal year 2000, we have increased by 116 percent the number 
        of offenders drug tested every month.
  --We have placed over 3,500 defendants and offenders in contract 
        treatment in fiscal year 2002.
  --We are particularly pleased that our partnership activities have 
        expanded to include the city's faith institutions. Our multi-
        denominational Faith Community Partnership embraces more than 
        25 member institutions, and our volunteer mentor program has 
        matched more than 80 returning offenders with individuals who 
        are committed to helping them stay out of prison.
  --We continue to explore ways to partner with the Metropolitan Police 
        Department so that offenders are known to the police and our 
        Community Supervision Officers are a visible public safety 
        presence in the city's Police Service Areas. We are 
        particularly proud of joint supervision by MPD and CSOSA 
        officers who together make visits to offenders at their homes 
        and workplaces. These ``accountability tours'' demonstrate to 
        the community, the offender, and the offender's significant 
        others that the police and CSOSA are collaborating to enforce 
        supervision and prevent criminal activity.
  --We are also exploring ways in which offender and defendant 
        accountability can be enforced through technology, such as 
        using Global Positioning System-based electronic monitoring, to 
        maintain ongoing knowledge of the offender's location in order 
        to improve the enforcement of stay-away orders.
    For fiscal year 2004, CSOSA requests direct budget authority of 
$166,525,000 and 1,357 FTE. Of this amount, $103,904,000 is for the 
Community Supervision Program; $37,411,000 is for the Pretrial Services 
Agency, and $25,210,000 is for the Public Defender Service. The 
District of Columbia Public Defender Service transmits its budget 
request with CSOSA's. The Director of PDS, Ronald Sullivan, will 
present it in a separate statement.
    CSOSA's fiscal year 2004 budget request represents an 8 percent 
increase over fiscal year 2003 funding. Most of that increase is 
attributable to Adjustments to Base that will enable the Community 
Supervision Program to fully fund Community Supervision Officer 
positions to be filled in fiscal year 2003. These positions are 
essential to achieving our target caseload ratio.
    The Community Supervision Program increase also includes funding to 
expand our Close Supervision capabilities. In fiscal year 2002, CSOSA 
received $13 million and an authorization for 89 positions to expand 
the Assessment and Orientation Center into a full Reentry and Sanctions 
Center. Located at Karrick Hall on the grounds of D.C. General 
Hospital, the Assessment and Orientation Center provides a residential 
placement for high-risk defendants and offenders with extensive 
criminal histories and severe substance abuse problems. The program has 
proven very effective in increasing the likelihood that these 
individuals will go on to complete supervision successfully. Among 
offenders who complete the program, rearrests decreased by 74 percent 
in the year following treatment. Since its inception, almost 900 
defendants and offenders have successfully completed the program.
    The Reentry and Sanctions Center will increase the availability of 
this successful program for the offenders most likely to commit new 
crimes. We believe that through strategic intervention with this high-
risk population, we can achieve a significant decrease in recidivism. 
The Reentry and Sanctions Center will also increase CSOSA's capacity to 
implement intermediate sanctions for offenders and defendants who abuse 
drugs while under supervision, and for whom less intensive options 
might not be effective. Meaningful intermediate sanctions and increased 
availability of sanction-based treatment are among our most potent 
weapons in the fight to reduce recidivism.
    In September 2002, CSOSA signed a 10-year lease with the District 
of Columbia for the continued use of Karrick Hall. Although renovation 
work has been delayed pending approvals required by the District 
government, we request $3,104,000 to expand the Reentry and Sanctions 
Center to operate one additional unit, for a total of 40 beds. We will 
also continue to request funding for the program from the Office of 
National Drug Control Policy's High Intensity Drug Trafficking Area 
initiative, which has provided $1.3 million per year.
    The Pretrial Services Agency also has one new initiative focusing 
on enhanced supervision. Since the D.C. Department of Corrections' 
closure of Community Correctional Center No. 4 in 2002, more high-risk 
defendants are being released to the community and must be monitored by 
Pretrial Service Officers. The impact of this has been considerable. 
Officers must devote more time to every aspect of these cases and must 
increase the number of face-to-face contacts with these defendants. 
This increased contact is difficult to maintain with caseloads at their 
current levels. To mitigate the stress this has placed on the General 
Supervision staff, the Pretrial Services Agency requests $224,000 to 
provide vendor management of the agency's electronic monitoring 
program.
    We at CSOSA are proud of our progress as a Federal agency. We 
believe that our program model, which applies national best practices 
to the unique needs of the District of Columbia, will improve the 
safety of our city and increase the resources available to the 
offenders and defendants who live here. As we mature as an Agency, I 
have every confidence that we will be able to present an impressive 
record of accomplishments. I believe our success will make CSOSA a 
national leader in the field of community supervision and a unique 
model for other jurisdictions.
    Thank you again for the opportunity to appear before you today. I 
will be happy to answer any questions you may have.

                        Public Defender Services

STATEMENT OF RONALD S. SULLIVAN, JR., DIRECTOR
    Senator DeWine. Mr. Sullivan.
    Mr. Sullivan. Good afternoon, Mr. Chairman, Senator 
Landrieu.
    On behalf of the Public Defender Service for the District 
of Columbia, or PDS, I thank you for the opportunity to address 
you in support of PDS's fiscal year 2004 budget request. As you 
know, the Public Defender Services provides constitutionally 
mandated legal representation to indigent people facing a loss 
of liberty in the District of Columbia.
    PDS is the local defender in our Nation's Capital. And it 
is also a national standard-bearer. Throughout its 30-year 
history, PDS has maintained its reputation as the best public 
defender office in the country, local or Federal. We have been 
able to maintain this reputation because of PDS' innovative 
approaches that are applied by some of the most talented 
lawyers and support staff in the country. PDS is an agency that 
this Congress, this committee, and this community can be proud 
of.
    PDS generally is assigned the most serious resource-
intensive and complex cases in the District. With the 100 
lawyers on staff, PDS typically represents about 60 percent of 
the most serious felony charges; and the majority of juveniles 
facing serious delinquency charges. And consistent with a 2003 
initiative, we now represent nearly 100 percent of all people 
facing parole revocation. The majority of people--we also 
represent the majority of people in the mental health system 
who are facing involuntary civil commitment.
    With this backdrop, I will address our fiscal year 2004 
budget request. For fiscal year 2004, PDS requests $25,210,000 
and 218.5 FTE and direct budget authority, which includes a 
request for .5 or only one-half new FTE and $100,000 to support 
our only new initiative, the Appellate Assistance Response 
Initiative. The number of constitutionally mandated appellate 
cases opened by PDS has increased by 50 percent since 1997, 
while the numbers of attorneys providing these services has 
remained constant. In order to continue providing this 
constitutionally mandated service, PDS respectfully requests 
that this subcommittee approve its very modest budget 
initiative.
    Let me offer a brief example of how the work that we do 
makes a difference in the lives of real people. Recently, the 
District of Columbia Court of Appeals contacted PDS after 
affirming convictions in a two-person appeal. The Court was 
concerned because the briefs of one of the persons--and I will 
call her Jane to respect her privacy--looked like it was a 
verbatim replica of the other appellant's brief, even though 
the two had conflicting interests.
    PDS's Appellate Division accepted Jane's case, convinced 
the District of Columbia Court of Appeals to reopen the case, 
wrote new briefs for Jane, who all along maintained that the 
conviction was wrong, and, through PDS's advocacy, demonstrated 
that the evidence was not sufficient to support a conviction. 
Jane was acquitted. Justice was done.
    In another important Appellate Court matter, PDS advanced 
the position that it is improper and unconstitutional for the 
Government to exclude people from juries on the basis of 
religion alone, as religious freedom, in our view, reaches the 
core of what it means to be an American. Significantly, with 
the new Executive Branch administration, the Government advised 
the DCCA that it has changed its position and now agrees with 
PDS. Religion is an improper basis upon which to exclude 
jurors. We await the Court's decision.
    In other matters, PDS has recently increased the 
sophistication of its practice. And in light of this 
subcommittee's interest in and commitment to the children of 
the District of Columbia, I am proud to announce that we have 
added services at our organization, such as the special 
education advocacy for our juvenile clients. We are the only 
institutional provider, the District of Columbia Special 
Education Services. And given the disturbing correlation 
between educational deficiencies and delinquent behavior, this 
is a much-needed service.
    Utilizing the resources from our fiscal year 2003 DNA 
initiative, we have just litigated an admissibility issue 
involving a novel and complex DNA matter. Before ruling, the 
judge in this matter said--and he was referring to PDS and the 
United States Attorney's Office, and I quote, ``I want to say 
at the outset that you are to be highly commended. These are 
some of the most impressive pleadings I have seen in my years 
on the bench. It is a credit to both your institutions that you 
have been able to marshal all of this in a way that reminds me 
of two Wall Street firms going at it. I am sure you all are 
making $500 an hour.''
    And for the record, I will not object if this committee 
decides to compensate us thusly.

                           PREPARED STATEMENT

    This judge's recognition is consistent with PDS' model that 
we provide better services than money can buy. With your 
support of our appellate initiative and our fiscal year 2004 
budget request, I can assure the members of this subcommittee 
that PDS will continue to look for new and inventive ways to 
make each tax dollar we receive build a more fair and effective 
criminal justice system.
    My time has expired. I would like to thank you for your 
time and attention to these matters. And I will be happy to 
answer any questions you may have.
    [The statement follows:]

             Prepared Statement of Ronald S. Sullivan, Jr.

    Good afternoon, Mister Chairman and members of the Subcommittee. My 
name is Ronald S. Sullivan Jr., and I am the Director of the Public 
Defender Service for the District of Columbia (PDS). I come before you 
today in support of the agency's fiscal year 2004 budget request. The 
agency thanks you for your support of our programs in previous years.
    As a result of the National Capital Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally-funded, independent District of Columbia 
agency. In accordance with the Revitalization Act, PDS transmits its 
budget and receives its appropriation as a transfer through the Court 
Services and Offender Supervision Agency (CSOSA) appropriation. PDS 
provides constitutionally-mandated legal representation to people 
facing a loss of liberty in the District of Columbia who cannot afford 
a lawyer. In the District of Columbia, PDS and the District of Columbia 
Courts share the responsibility for providing constitutionally-mandated 
legal representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA), the 
District of Columbia Courts appoint PDS generally to the more serious, 
more complex, resourceintensive, and time-consuming criminal cases. The 
Courts assign the remaining, less serious cases and the majority of the 
misdemeanor and traffic cases to a panel of approximately 350 
preselected private attorneys (``CJA attorneys''). Approximately 100 
lawyers on staff at PDS are appointed to represent: a significant 
percentage of people facing the most serious felony charges; the 
majority of the juveniles facing serious delinquency charges; nearly 
100 percent of all people facing parole revocation; and the majority of 
people in the mental health system who are facing involuntary civil 
commitment.
    In less than 1 week, defense attorneys and others from around the 
country will mark the 40th anniversary of Gideon v. Wainwright,\1\ the 
landmark Supreme Court case that held that a fair trial in non-Federal 
criminal cases includes the right to an attorney for those who cannot 
afford one. PDS, like so many other public defender offices, owes its 
existence to that case. PDS, however, is unique. It is the local 
defender office for our Nation's capital, and it is the national 
standard bearer; throughout its history PDS has maintained its 
reputation as the best public defender office in the country--local or 
Federal. PDS is an agency this Congress and the District of Columbia 
can be proud of.
---------------------------------------------------------------------------
    \1\ 372 U.S. 335 (1963).
---------------------------------------------------------------------------
    That reputation is no accident. From its beginning in 1971 as the 
Legal Aid Society, PDS' mission has been to serve as a model public 
defender organization in providing defense representation to the 
traditionally underserved indigent population. That mission has led PDS 
over the past 30+ years to enhance and improve the representation it 
offers to its clients. While much of our work is devoted to ensuring 
that no innocent person is ever wrongfully convicted of a crime, we 
also provide legal representation to people with mental illness who are 
facing involuntary civil commitment, recovering substance abusers 
participating in the highly successful Drug Court treatment program, 
and juveniles in the delinquency system who have learning disabilities 
and require special educational accommodations under the Individuals 
with Disabilities in Education Act. \2\
---------------------------------------------------------------------------
    \2\ 20 U.S.C. Sec. 1400, et. seq.
---------------------------------------------------------------------------
    PDS' mission has also led the agency to expand the resources it 
provides to the criminal justice community at large in the form of 
training for other District of Columbia defense attorneys and 
investigators who represent those who cannot afford an attorney and in 
the form of support to the District of Columbia Courts. In addition, 
the mission has spurred PDS to develop innovative approaches to 
representation, from instituting measures to address the problems of 
clients returning to the community who have been incarcerated to 
creating a one-of-a-kind electronic case tracking system. As PDS' 
recently chosen Director--one who previously had the honor of serving 
as a staff attorney and later as general counsel at PDS--I intend to 
maintain PDS' tradition of fulfilling the promise of that landmark 
Supreme Court case by ensuring qualified counsel for the accused in the 
Nation's capital while continuing to prepare the agency for the 
challenges it faces in the 21st century.
    Our sole fiscal year 2004 requested initiative, the Appellate 
Assistance Response Initiative, is part of that effort. For fiscal year 
2004, PDS requests $25,210,000 and 218.5 FTE in direct budget 
authority, which includes a request for .5 new FTE and $100,000 to 
support this new initiative. This modest increase in personnel 
resources and funding is requested in recognition of the President's 
emphasis on spending for national security.

                        FISCAL YEAR 2004 REQUEST

Appellate Assistance Response Initiative
    PDS applies throughout the agency its innovative approach to 
providing defense representation to individuals who are unable to pay 
for their own attorneys, including in its Appellate Division. PDS has 
become an established resource for the District of Columbia Court of 
Appeals as the Court has increasingly relied on PDS' Appellate Division 
for assistance in matters of unusual importance or complexity. PDS 
renders this assistance through amicus curiae, or ``friend of the 
court,'' briefs while it continues to provide constitutionally-mandated 
appellate representation to individuals. PDS not only serves the 
District of Columbia Court of Appeals in this way, but also the 
District of Columbia Superior Court; PDS has even appeared as amicus 
curiae in the United States Supreme Court. The Superior Court also 
turns to PDS with requests for amicus curiae briefs on complex or 
unusual issues that arise in collateral proceedings such as ineffective 
assistance of counsel claims.
    In part due to the consistent demand for PDS expertise as amicus 
curiae to the benefit of the criminal justice system, in the 5 years 
since the passage of the Revitalization Act, the number of 
constitutionally-mandated appellate cases opened by PDS has increased 
by 50 percent while the number of attorneys providing these services 
has remained unchanged. Furthermore, PDS appellate attorneys have 
additional responsibilities that place demands on their time. Attorneys 
in the Appellate Division devote a significant amount of time to 
training both PDS and non-PDS lawyers. Appellate Division attorneys 
organize and present material for the ``appellate track'' of the 
Criminal Practice Institute conference, they conduct several sessions 
in the yearly summer training series for the CJA bar, and they organize 
internal training sessions for PDS attorneys. The caseload increase, 
the requests for amicus curiae briefs, and the training work combined 
have stretched the Appellate Division's capacity, straining its ability 
to effectively meet the needs of PDS clients and the Court of Appeals 
at current funding levels. In order to continue providing 
constitutionally-mandated appellate legal representation to individuals 
who cannot afford an attorney and to the District of Columbia Courts, 
PDS seeks .5 FTE and $100,000 in increased support.

                    FISCAL YEAR 2003 ACCOMPLISHMENTS

    In fiscal year 2003, in addition to handling a variety of criminal, 
juvenile, parole, mental health, and other legal matters, the agency 
was very successful in instituting changes to improve the overall 
quality of the District of Columbia justice system through new 
approaches to client service, through litigation, and through very 
successful collaborations with other criminal justice and social 
service organizations. PDS' success in these areas was recently 
recognized by the Legal Aid Society of the District of Columbia, an 
organization that exists to make pro bono legal representation 
available to those who can least afford the services of an attorney.
    The Legal Aid Society selected PDS as one of its two honorees for 
2003 ``who have demonstrated unswerving dedication and achievement in 
providing access to all persons, regardless of income, to 
representation before the District of Columbia courts and agencies.'' 
Almost all past honorees, who include Justice Thurgood Marshall, the 
Honorable Eric Holder, Jr., and Charles Ruff, have been individual 
attorneys. Significantly, this year the Legal Aid Society decided to 
select an agency for this honor instead. This award pays tribute to 
PDS' effort to ensure that each and every client receives 
representation at the highest level of professional competence. This 
goal has always been--and will continue to be--the lodestar that guides 
this agency.

                      FISCAL YEAR 2003 INITIATIVES

    In fiscal year 2003, Congress passed as a bill, and the President 
signed into Law, a new program increase for PDS totaling 6 positions, 6 
FTE, and $874,000 in support of two new initiatives. PDS' DNA Sample 
Collection Act initiative received 2 positions, 2 FTE, and $427,000. 
The agency's Parole Revocation Defense Initiative received 4 positions, 
4 FTE, and $447,000. The enacted law was further amended under H.J. 
Res. 2 to decrease the total funding available in fiscal year 2003 in 
support of these new initiatives by a rescission of .65 percent, or 2 
positions, 1 FTE, and $149,955.

               DNA SAMPLE COLLECTION RESPONSE INITIATIVE

    As anticipated when PDS submitted its fiscal year 2003 budget 
request, the District of Columbia Council passed the Innocence 
Protection Act, which requires the government to retain all evidence 
containing DNA material to assist in establishing or refuting post-
conviction claims of actual innocence. This Act, along with the 
District of Columbia's DNA Sample Collection Act and the Federal DNA 
Analysis Backlog Elimination Act,\3\ has led to an increased need 
within the District of Columbia criminal justice system for expertise 
in the use of DNA as evidence. To implement its fiscal year 2003 DNA 
Sample Collection Response Initiative, PDS is generating the internal 
and external training necessary to develop attorneys with the knowledge 
and skills to engage in cutting edge litigation involving the ever-
changing landscape of DNA evidence. A Superior Court judge deciding a 
PDS matter that involved some of the most controversial and technically 
sophisticated scientific issues of this type recently acknowledged the 
value to the criminal justice system of expert litigators. The judge 
thanked the agency for its extraordinary pleadings and the caliber and 
stature of the expert witnesses who had been presented to the court. 
The judge also noted that the quality of the parties' advocacy and 
pleadings was on par with that of Wall Street firms charging $500 per 
hour.
---------------------------------------------------------------------------
    \3\ Both of these Acts require that the Court Services and Offender 
Supervision Agency collect DNA samples from D.C. Code offenders for 
comparative analysis by the FBI in unsolved crimes.
---------------------------------------------------------------------------
    Our recent investment in this rapidly developing area, combined 
with the commitment of the team of PDS lawyers involved in this effort, 
has taken the agency to the forefront of this field. We are already 
leveraging this expertise to share it with our colleagues on the CJA 
attorney panel. Thanks to the added assistance of Federal grants, PDS 
has committed to planning and hosting a free forensic science 
conference for court-appointed defense attorneys in the District of 
Columbia in June of this year. The conference will provide the most up-
to-date knowledge concerning the use of forensic evidence to conference 
participants. We have already obtained appearance commitments from a 
number of nationally recognized speakers.
    As has been PDS' custom, we will continue to develop the agency's 
expertise in new scientific methods and then seek to promptly 
disseminate and share that expertise to the benefit of all persons 
charged with offenses in the District of Columbia who cannot afford an 
attorney.

                  PAROLE REVOCATION DEFENSE INITIATIVE

    PDS' Special Litigation Division has handled an average of 75 
parole revocation cases per month in the first 4 months of fiscal year 
2003. This is consistent with the estimate of 70 to 100 cases per month 
PDS estimated in its fiscal year 2003 budget request, and it represents 
a 50 percent increase in the number of the Division's new case 
referrals from the same period last year. This underscores the need for 
the additional resources provided by the fiscal year 2003 budget. The 
Division continued to provide constitutionally-mandated parole 
representation in nearly 100 percent of all parole revocation cases 
involving D.C. Code offenders before the U.S. Parole Commission, a 
service PDS assumed responsibility for providing after the 
Revitalization Act was passed. The Division has recruited students from 
local law schools to represent District of Columbia parolees at their 
revocation hearings in order to leverage the agency's existing 
resources and provide litigation training to the students. The 
students, whose work is supervised by PDS attorneys, have relieved some 
of the strain on the agency's resources.

                     COMMUNITY RE-ENTRY INITIATIVE

    In fiscal year 2002, PDS received 10 positions, 9 FTE, and 
$1,019,000 in support of its Community Re-entry Initiative. PDS, ever 
exploring new, effective methods to meet the needs of its clientele, 
has established a Community Re-entry Project to help smooth the path 
that leads incarcerated individuals back into the community and to 
support them upon their arrival. The Project, PDS' sole fiscal year 
2002 initiative, continues to make great strides toward becoming fully 
functional. In fiscal year 2003, the Project \4\ focused on addressing 
the needs of children involved in the District of Columbia's juvenile 
delinquency system. The Community Re-entry Project developed a program 
to monitor the progress of children placed through the juvenile 
delinquency system in residential facilities and to provide support to 
prepare them for returning to their home communities. The Project also 
developed a ``Street Law'' program for children placed in the District 
of Columbia's juvenile detention facility to improve their decision-
making; this program will be expanded to include children placed in 
District of Columbia group homes. The Community Re-entry Project is 
also working with local public and private school students to develop 
peer mentor relationships between those students and children placed in 
the juvenile detention facility; the relationships will provide 
additional resources upon the children's return to their home 
communities.
---------------------------------------------------------------------------
    \4\ For children, the Community Re-entry Project operates as PDS' 
Juvenile Services Program.
---------------------------------------------------------------------------
    Also, working with local Hispanic families, the Community Re-entry 
Project assists in making resources available in their own 
neighborhoods to children returning from the District of Columbia's 
juvenile detention facility. The Project creates links between the 
returning children and a local neighborhood collaborative to identify 
and provide community support resources. The Project will expand this 
program by replicating it with other neighborhood collaboratives 
throughout the city to develop a network of support resources for 
children being released from the facility. The Project is developing an 
anti-truancy program in collaboration with the District of Columbia 
public schools system, the D.C. Bar, and the District of Columbia 
Superior Court to address truancy issues in recognition of their 
observed correlation with delinquent behavior.
    PDS will continue to develop the Project this year by addressing 
the needs of adults for re-entry services and support. The Project has 
established contact with some social services organizations and is 
seeking others to assist in easing the transition from incarceration to 
release with educational, employment, training, counseling resources 
and other effective tools to increase opportunities for success and 
decrease chances of recidivism.

                    GENERAL PROGRAM ACCOMPLISHMENTS

Criminal Justice System Reforms
    In accordance with PDS' many efforts to find new, effective means 
of implementing its mission to provide representation to those in the 
District of Columbia criminal justice system who cannot afford an 
attorney, PDS' Appellate and Special Litigation Divisions have 
litigated cases that have direct impact on services and processes of 
other local and Federal Government entities within and outside of the 
criminal justice system that affect our clients. PDS' successful 
advocacy in such cases has led to the equitable provision of public 
services to all recipients--not just PDS clients--ensuring that the 
rights of all people are protected and that critical support services 
necessary for incarcerated individuals' successful transition back into 
the community are available.
    Ensuring adequate representation.--The District of Columbia Court 
of Appeals solicited PDS' assistance after observing questionable 
behavior by a non-PDS appellate attorney in that Court. A woman and her 
codefendant had separately appealed their convictions for unauthorized 
use of a vehicle, each arguing that the evidence was insufficient to 
support the conviction. In reviewing the coappellants' cases, the Court 
noted that the woman's brief, filed by the appellate attorney, was an 
almost verbatim replica of the earlier filed brief of the woman's 
coappellant. After affirming both convictions, the Court contacted PDS 
and appointed the agency as the woman's new appellate counsel. The 
Court accepted PDS' argument that the first appellate attorney's 
performance was so deficient and prejudicial as to be tantamount to the 
complete absence of counsel on appeal, and allowed the woman to pursue 
her direct appeal again. In briefing the direct appeal, PDS pursued the 
same sufficiency-of-the-evidence argument advanced before. However, for 
the new brief, PDS was able to distinguish legal and factual arguments 
applicable to the woman's case that had been obscured by the first 
appellate attorney's approach of apparently copying the coappellant's 
brief. The Court held that the woman was entitled to a judgment of 
acquittal, as a direct result of PDS' involvement.
    Support for the District of Columbia Family Court's authority.--PDS 
has been at the forefront of litigation designed to ensure that judges 
of the newly created Family Court in the District of Columbia maintain 
the ability to exercise the responsibility and power Congress 
envisioned when it created that Court and sought to guarantee the 
existence of a cadre of judges with expertise in matters pertaining to 
children. Specifically, PDS has been involved in extensive litigation, 
both in the Superior Court and in the Court of Appeals, with the 
District of Columbia to resolve whether the Department of Human 
Services (DHS), a District of Columbia executive branch agency, or 
Family Court judges should have the power to determine what facility is 
best suited to meet the needs of troubled youth. According to DHS, once 
a judge determines that a delinquent child should be committed to DHS, 
the judge loses all authority to determine what institution or facility 
best meets that child's needs. PDS' position is that Congress has 
invested judges, in particular the specially trained Family Court 
judges, with the power and responsibility to determine those placements 
and not simply to hand the children to DHS and hope for the best.
    Fairness in jury selection.--PDS has been advancing the position 
for several years that striking a prospective juror on the basis of 
that juror's religious affiliation is unconstitutional in the same way 
that striking a juror on the basis of race or gender violates the 
Constitution. In our view, striking a juror on the grounds of religious 
affiliation alone--without a demonstrated basis that the juror's 
religious affiliation will interfere with the juror's ability to be 
impartial--violates the Equal Protection Clause and the First 
Amendment's Religion Clauses. Following the most recent change in 
administration, the Federal Government switched its position and 
notified the District of Columbia Court of Appeals that it now agrees 
with PDS that it would be unconstitutional to strike a juror on the 
basis of religious affiliation alone. If the Court agrees, this will be 
an important step in protecting religious liberty.
    Excessive detention.--PDS assisted a client who had been held at 
the District of Columbia Jail for a parole hearing based on a new 
criminal charge that was subsequently dismissed. Because the jail 
failed to act on the U.S. Parole Commission's detainer after the 
dismissal, the client waited unnecessarily for over a year to be 
brought before the Commission for his parole hearing. PDS' Special 
Litigation Division sought relief in Federal court; shortly before a 
hearing in the case, the client's illegal detention was terminated, and 
he was released from the jail.
    Rehabilitation of youthful offenders.--PDS challenged the failure 
of the Bureau of Prisons to comply with a requirement of the District 
of Columbia's Youth Rehabilitation Act that individuals sentenced under 
the Act be housed separate from adults. One of the Bureau's prison 
facilities placed each of 29 youthful offenders from the District of 
Columbia with an adult cellmate. Shortly after the PDS challenge was 
filed, each of the 29 was sharing a cell with another youthful 
offender.
    Timely parole hearings.--PDS pursued a class action case 
challenging the United States Parole Commission's failure to provide 
timely preliminary and final parole revocation hearings for District of 
Columbia parolees locally and throughout the country. The parties 
recently negotiated and signed a consent decree that mandates such 
timely hearings for the hundreds of affected individuals. The case was 
resolved after a Federal court agreed that the U.S. Parole Commission's 
procedures were unconstitutional and ordered the Commission to make 
critical reforms.

                 CRIMINAL JUSTICE COLLABORATION PROJECT

    Just as PDS explores new ways to ensure that it provides quality 
representation to its clients, PDS explores new opportunities to 
collaborate with others who seek to improve service to our clients or 
to the criminal justice system. An example, in addition to the 
collaborative work engaged in by the Community Re-entry Project as 
described above, is the OPTIONS Mental Health Treatment Program, 
developed by PDS to assist individuals in the criminal justice system 
who can benefit from the intervention of mental health professionals.
    OPTIONS continues to serve people with mental illness in 
collaboration with the Criminal Justice Coordinating Council, the 
District of Columbia Department of Corrections, the Pretrial Services 
Agency, the District of Columbia Department of Mental Health, and the 
District of Columbia Superior Court. The OPTIONS program provides 
comprehensive treatment and social services to people with mental 
illness who are charged with non-violent offenses in order to prevent 
recidivism and promote healthy rehabilitation. No similar service 
existed before PDS created this program, however, the need for it was 
significant.
    During its year-and-a-half existence, the program has been 
incredibly successful, assisting nearly 150 people with mental illness 
by providing counseling, medication, housing, and other critical social 
services. The participants in the OPTIONS program are individuals who 
have traditionally been a high risk for successive re-arrests in the 
absence of effective treatment. Through the comprehensive services 
provided in the OPTIONS program, the re-arrest rate among program 
participants has declined. In recognition of its positive impact, this 
pilot program has now been fully incorporated into the Department of 
Mental Health and will be a permanent fixture in the District of 
Columbia criminal justice system to better serve people with mental 
illness.

                     OTHER PROGRAM ACCOMPLISHMENTS

    PDS maintained its strong emphasis on providing representation in 
novel ways to people who cannot afford attorneys by continuing to 
implement and build on effective strategies it has already developed. 
PDS' special education work continues to serve the children who become 
involved in the juvenile delinquency system, PDS' long-standing mental 
health practice assumed new responsibilities, and PDS added new topics 
to its existing training program.
    Special Education Services.--One of the areas into which PDS has 
more recently expanded in an effort to meet more of the needs of its 
clientele is special education advocacy. PDS' Civil Legal Services Unit 
was established to address issues facing children in the delinquency 
system that often hinder the child's successful re-integration into the 
community. The centerpiece of the Unit is the team of attorneys who 
specialize in advocacy under the federal Individuals with Disabilities 
in Education Act (IDEA),\5\ which mandates special accommodations in 
public schools for children who cannot be adequately educated in a 
traditional classroom setting due to a learning disability or other 
challenge. The Unit's attorneys ensure that children receive an 
appropriate diagnostic assessment and work with the school system to 
secure alternative educational programs.
---------------------------------------------------------------------------
    \5\ 20 U.S.C. Sec. 1400, et seq.
---------------------------------------------------------------------------
    Mental health representation.--Toward the beginning of fiscal year 
2003, PDS' Mental Health Division began providing representation in all 
cases brought under a new District of Columbia statute providing for 
the involuntary civil commitment of individuals found not competent to 
stand trial due to mental retardation.\6\ The agency took on this 
responsibility while continuing to play a significant role in 
representing individuals with mental illness who are subject to civil 
commitment proceedings in the Superior Court. During the first few 
months of fiscal year 2003, the Division has been assigned 
approximately 60 percent of the emergency hospitalization cases filed 
in the Superior Court.
---------------------------------------------------------------------------
    \6\ Civil Commitment of Citizens with Mental Retardation Amendment 
Act of 2002, Pub. L. No. 14-199 (2002).
---------------------------------------------------------------------------
    Training.--PDS continues its tradition of providing in-depth 
training courses for court-appointed CJA attorneys in order to ensure 
that all counsel are qualified to handle the cases to which they are 
appointed and to promote the maximum economic efficiency in providing 
legal representation to people who cannot pay for an attorney.
  --PDS coordinated and presented ``Hot Topics in Education and 
        Community-based Services for Children with Disabilities,'' a 
        training program for attorneys who represent children in 
        juvenile delinquency proceedings. PDS has developed an 
        expertise in this area, and is the only such resource in the 
        District of Columbia.
  --The Superior Court has adopted standards for selecting attorneys 
        for membership on a panel the Court will look to for 
        appointment to cases in the juvenile justice system. This 
        parallels the process put in place by the Court for adult 
        cases. PDS is developing training materials and programs to 
        help attorneys obtain the requisite qualifications and skills.
  --The Public Defender Service produced the Criminal Practice 
        Institute Practice Manual, a 1,800-page, comprehensive treatise 
        on criminal law in the District of Columbia. Over 600 copies of 
        this manual have been distributed to the judges on the District 
        of Columbia Courts, the United States Attorney's Office, the 
        Bureau of Prisons, area law schools and the private bar.
  --The Public Defender Service sponsored the 38th annual Criminal 
        Practice Institute training conference, a 2-day event involving 
        seminars by nationally-known speakers, law professors, legal 
        scholars, local judges and criminal justice practitioners. 
        Approximately 100 participants attended the 2002 conference 
        along with PDS staff.
  --As it has done for the past 3 years, PDS has already begun to plan 
        for its annual Summer Series. This is a series of weekly 
        evening seminars in May, June, and July that are provided free 
        of charge to CJA attorneys covering matters specific to 
        practice in the Criminal and Family Divisions of the Superior 
        Court.
  --After adopting an investigator training proposal from PDS, the 
        Superior Court implemented a mandatory training requirement for 
        all CJA criminal investigators. Senior PDS investigators and 
        PDS staff attorneys prepared the training materials and 
        coordinated the training sessions on all aspects of criminal 
        investigation. As of the first 5 months of fiscal year 2003, 
        over 120 investigators have been trained and certified, and PDS 
        has already planned training for an additional 20 investigators 
        in the coming month. PDS will then turn its resources toward 
        providing the annual training required of investigators to 
        maintain their certification from year to year. This program is 
        designed to ensure that now, and in the future, there are 
        sufficient qualified investigators to assist CJA attorneys.

                     ADMINISTRATIVE ACCOMPLISHMENTS

    PDS' emphasis on innovation is not limited to its program-related 
work. The agency continually reviews its practices and procedures to 
improve its operational functions. Particularly now that PDS is a 
federally-funded agency, it seeks to reach a corresponding level of 
sophistication in the administration and execution of its 
responsibilities. Recent improvements made by PDS provide the necessary 
infrastructure to support our programs and our program staff and 
increase the potential for greater efficiency and effectiveness in 
carrying out PDS' mission.
    Information Technology.--PDS is developing its own case tracking 
software that provides comprehensive case management functionality for 
PDS attorneys, staff, and management. PDS demonstrated the software at 
a conference for defense attorneys, and other public defender 
organizations across the country have contacted PDS to express an 
interest in obtaining the software for their own use.
    Government Performance and Results Act.--PDS made significant 
progress in developing a 5-year strategic plan similar to the plans 
required of Federal executive agencies under the Government Performance 
and Results Act. The PDS management staff is reviewing the draft 5-year 
plan, the related 1-year performance plan will follow shortly, and PDS 
expects to present a performance-based budget request to Congress for 
fiscal year 2005.
    Criminal Law Database.--PDS added to its website a criminal law 
database that is the most comprehensive, publicly available research 
tool on District of Columbia criminal law in the country. It allows 
local practitioners and members of the public to find information about 
every existing D.C. Code offense, including the potential sentence. The 
database also contains an explanation of the District of Columbia's 
preventive detention statute, information on the immigration 
consequences for non- citizens in the criminal justice system, a 
description of the possible parole consequences for a parolee charged 
with a new offense, a parole ``salient factor score'' calculator, 
information about juvenile practice in the District of Columbia, a list 
of recently decided appellate cases, and a variety of important 
criminal justice links.
    Investigative staff increases.--Since fiscal year 2001, PDS has 
more than tripled the number of full-time staff investigators--
including five who are fluent in Spanish to serve the growing number of 
Spanish-speaking clients--and developed a comprehensive professional 
training program. Every PDS lawyer who handles felony cases now has a 
full-time staff investigator to assist with case preparation. This 
allows attorneys to reduce their involvement in time-consuming tasks 
that could be performed by non-attorneys and focus more on doing purely 
legal work.
    Each of the above reforms and successful collaboration projects has 
contributed to a better, more efficient criminal justice system and has 
improved the quality of services provided to people who cannot afford 
an attorney in the District of Columbia justice system. They serve as 
examples of the manner in which PDS identifies new ways of serving 
clients on its own and in successful collaboration with others, all 
consistent with PDS' goal of providing representation by qualified 
attorneys to those it is dedicated to serve.

                               CONCLUSION

    The right to a qualified attorney for people who cannot afford one 
is simple and basic, so much so that it has easily woven itself into 
American culture and into the public's consciousness. PDS has been in 
the forefront of defining what it means to satisfy the requirements of 
that right--not only defining it, but also meeting and exceeding that 
standard. As PDS has matured as an agency, it has increased the 
sophistication of its practice, adding services such as its special 
education advocacy and its community re-entry programs, which have the 
additional benefit of potentially reducing recidivism. PDS has thereby 
helped to raise the level of practice of the defense bar in the 
District of Columbia, ensuring that PDS can live up to one accurate 
description of the agency's work: ``better representation than money 
can buy.''
    I respectfully request your support of this initiative, and I would 
like to thank the members of the Committee for your time and attention 
to these matters and for your support of our work to date. I would be 
happy to answer any questions the Committee members might have.

    Senator DeWine. Thank you. Good. You both are right on 
time. Thank you. Appreciate it very much.
    Mr. Quander----
    Mr. Quander. Yes, sir.
    Senator DeWine [continuing]. Am I pronouncing your name 
close enough?
    Mr. Quander. You are. It is right on point.
    Senator DeWine. Right on point. Thank you.
    You talked about a 50-to-1 ratio.
    Mr. Quander. Yes.

                               OFFENDERS

    Senator DeWine. How does that compare with what is the 
national norm or the--I do not want to say the national 
average, because that is probably not what our goal should be. 
But what is recommended in your field, in your profession?
    Mr. Quander. In our field, I believe the----
    Senator DeWine. Excuse me. But considering the nature of 
the offender that you are dealing with.
    Mr. Quander. Well, the general population, general 
supervision, the national recommended goal is essentially 50 to 
1. We are very close to reaching that goal. Right now, we are 
in the area of 56 to 1 for general supervision.
    I had the opportunity recently to read an article from a 
newspaper in Annapolis, and the article spoke of the Maryland 
system. And in their system for parole and probation, they are 
averaging in excess of 116 cases per supervision officer. The 
article concluded by saying that that is nearly impossible to 
supervise individuals the way that the Court or that the 
citizens want.
    We are trying to reach that goal. And we think we will be 
able to reach that goal with the appropriations for 2004 so 
that we can provide all the services that we need to provide. 
That is the general population.
    For specialized individuals, such as sex offenders, 
domestic violence, traffic and alcohol, mental health, that 
ratio needs to be lower, needs to be in the area of 35 to 1.
    Senator DeWine. And where are you with the specialized 
population? I missed that in your testimony. I am sorry. I know 
you said it.
    Mr. Quander. In the specialized population, roughly we are 
averaging about 44 to 1. It is a little closer to, I think, 35 
to 1 or 37 to 1 in the sex offense area.
    Senator DeWine. And let me just say, as a former prosecutor 
and also someone who, as lieutenant governor of the State of 
Ohio, one of my responsibilities was to oversee our prison 
system, that the special population worries me more than the 
other population. And I guess I would be very interested in 
seeing what this committee could do to help you target that 
special population and work with you, Senator Landrieu, to try 
to get those special population numbers to where you want it to 
be.
    Mr. Quander. Thank you.
    Senator DeWine. I wonder if we could maybe dialogue with 
you on that.
    Mr. Quander. I would like to do that.
    Senator DeWine. I know you want to stay within the 
President's budget, and we do, too. But that worries me. And 
you are a little off there. And maybe we could talk about what 
it would take over the next couple years to move towards 
hitting that goal of 35 or whatever you think is the right 
number. You are close to it in the sex offenders, you say----
    Mr. Quander. Yes.
    Senator DeWine [continuing]. But maybe work towards the 
other. And I would ask our staff to work and set that as a goal 
of our committee. Because we are dealing with the safety of the 
people of the District of Columbia and the visitors to the 
District of Columbia. And I think it is very important.
    Mr. Quander. Yes. I would welcome that. One of the things 
that I would like to share with you is that what we are doing 
with that special population, and the reason their caseload is 
lower and why it needs to be lower is that we spend more time 
actually monitoring, supervising, having them come in, testing, 
all of those things. And actually, we are piloting a global 
positioning system.
    Senator DeWine. Really?
    Mr. Quander. And we are going to pilot it for the sex 
offenders, so that we will attach a bracelet, and we will be 
able to monitor where that individual is. We will be able to 
know if he has gone into a specific area where he is not 
allowed to be.
    I have had an opportunity to go down and to take a look at 
the system that is used by the Florida Department of 
Corrections, along with our associate director, Tom Williams. 
And we have had members of our staff actually utilizing it, 
wearing it, moving throughout the city. So we are getting close 
to piloting it. And we are looking at piloting it on a special 
group of the sex offender population.
    Senator DeWine. Well, you know, if there is a target 
population that is likely to re-offend, it is your target 
population. And you are the one who--you target them. You 
figure out who they are. You do it based on your expertise. We 
do not do it; you do it. And it seems to me that once you do 
that, that you need to have whatever the assistance is that you 
need to try to monitor that population and monitor them 
correctly. And we ought to try to give you the assistance that 
you need. You are the professional. Your people are the 
professionals. And we ought to try to give you the help that 
you need to do that within budget constraints. But we ought to 
try to bend over backwards to try to give you the help that you 
need. And we are going to try to do that. So----
    Mr. Quander. Thank you. We would greatly appreciate it.
    Senator DeWine. So our staff will work with you and maybe 
over the next couple of years try to do some things that could 
be of help. Thank you.
    Mr. Quander. Very well. Thank you.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. Thank you. First of all, let me thank 
both of you for stepping up to the positions that you have been 
asked to serve in with such enthusiasm. And I understand, Mr. 
Quander, that you are the first official first-time director of 
this very new Federal agency.
    Mr. Quander. Yes.
    Senator Landrieu. And we are joined today by the interim 
leader, Mr. Ormond. Are you here, Mr. Ormond?
    Mr. Quander. Yes, he is.
    Senator Landrieu. Thank you for the work that you have done 
over the last couple of years to get us to this point.
    Mr. Ormond. Thank you very much.

                  SUPERVISOR/PRETRIAL DEFENDANTS RATIO

    Senator Landrieu. And of course, our committee takes very 
seriously this responsibility because we basically are a direct 
appropriator to these Federal agencies. And while, again, we do 
not have the staff and do not ever intend to micro-manage it, 
we want you to know that we want to be a good resource to both 
of you to accomplish the goals that you have outlined and to 
share with us, because we share with you much of your vision.
    I understand that you all--Mr. Quander, you have a 
population of about 16,000 convicted offenders who are released 
into this community on probation, parole, or supervised 
released. That would be annually, 16,000 a year?
    Mr. Quander. Yes, roughly about 15,000.
    Senator Landrieu. Okay. And then you supervise on an annual 
basis about 8,000 defendants pretrial.
    Mr. Quander. That is correct.
    Senator Landrieu. And you do that all for a budget request 
of this year $166.5 million.
    Mr. Quander. Yes.
    Senator Landrieu. And Senator DeWine had asked, and I want 
to just be clear for the record, what is our ratio that we are 
at today in terms of probation supervisors to the convicted 
offenders? What is the ratio between the supervisor and the 
pretrial defendants?
    Mr. Quander. Certainly. It----
    Senator Landrieu. And what are our goals?
    Mr. Quander. The ratio as far as probation and parole and 
general supervision currently stands at 56 to 1. Our goal is 50 
to 1. In the specialized areas that I mentioned, the sex 
offense, mental health, domestic violence, and traffic and 
alcohol, our current ratio, I believe, is in the area of 44 to 
1. And what we are trying to get is to the area of 35 to 1.
    In pretrial services, the Pretrial Service officers, I 
believe their current caseloads are averaging in excess of 100, 
maybe 110. And I believe they want to be in the area close to 
where we are, in the area of like 50 or 60 to 1. Part of the 
2004 appropriations request will allow the Pretrial Services 
Agency to contract out for vendor services for the electronic 
monitoring program, which will allow them to use the staff that 
are currently doing that to bring down the caseload.
    Our agency, CSOSA, is also assisting with authority, 
reallocating positions, 10, to help them as they try to reduce 
their caseload and get it down to a much more manageable level.
    Senator Landrieu. We would like to work with you on that. 
We would like to keep these caseloads at a level where actually 
good work can be done, and the people that are doing the work 
feel as good about the work as they can, which is extremely 
difficult and very challenging work. In order to accomplish 
that, it is not only a reasonable ratio--and I am not sure that 
50 to 1 or 56 to 1 or 40 to 1 or 30 to 1, if there is any magic 
number. But I would also say that managing and minimizing the 
turnover of your employees is also very important, so that you 
have trained and skilled people not just moving in and out, but 
retraining staff.
    Could you comment a moment about your turnover in your 
agency? And could you give us a snapshot? And if not today, 
maybe present to this committee a snapshot of the turnover of 
your agency.
    Mr. Quander. I will be able to provide the exact figures in 
a subsequent submission. But I can inform you of this: As a new 
director, I spend a lot of time in the field talking to the 
workers, the people that actually do the work day in and day 
out. And the one constant, as I walk through the agency, is 
that people, the employees, they still want to save the world.
    Senator Landrieu. That is good.
    Mr. Quander. And what they say is, you know, ``Mr. Quander, 
if you can do X, Y, and Z, if you can remove this impediment, I 
can do even more.''
    As a director, I mean, I love to hear that because all they 
are saying to me is ``Remove some of these hurdles, make my job 
a little easier, I want to go out, I want to talk to people, I 
want to make a difference.''
    So I do not believe the turnover rate is very high. I 
believe right now we may have one or two vacancies in our 
supervision ranks. We have a new class that is coming on board. 
So we have people, for the most part, who are very involved. 
They are committed to it. It is extremely difficult for them, 
because they go to bed at night and they wake up in the morning 
and they open up the newspaper to see if one of their offenders 
may have committed a new crime.
    Senator Landrieu. Right.
    Mr. Quander. So there is a lot of pressure. But when we 
talk to them--and recently, Friday, we had our OMB budget 
analyst and her supervisor to walk through our facilities. And 
we just laid it out and gave them access to anyone they wanted.
    So I think the attitude is still there. They want to work. 
They just need me to provide a little support, to remove some 
of the impediments.
    Senator Landrieu. Well, that is very, very, very 
encouraging. And we want to be helpful.
    And I know I have only a minute left. But, Mr. Sullivan, I 
want to say that you bring to your job a tremendous background 
and accomplishments. And I am very impressed with your resume 
and what you bring to the job and your vision for what you are 
doing. And I hope that we will continue the good work in the 
history of your agency and look forward to continued benefit to 
the community.
    I am going to submit, Mr. Chairman, if I could, I have 
actually a number of very good questions that we are prohibited 
from pursuing because of our time. But I would like to have 
answers to these, so that we can get a better grasp of where 
you are now, where we need to go, so that we can try to be 
helpful.
    Mr. Sullivan. Certainly.
    Senator DeWine. Very good. Well, let me thank both of you 
very much. We appreciate your testimony, appreciate your 
written testimony, and look forward to working with both of 
you.
    Mr. Quander, we will follow up with you. And we would 
invite both of you, if you have specific concerns--I know you 
have submitted your request, but if you have specific concerns, 
to feel free to contact our staff as we prepare our budget, if 
there is anything in addition.
    And Mr. Quander, we will reach out to you and see what 
specifically we can do to work on that particular area that I 
was talking about.
    Mr. Quander. Thank you.
    Senator Landrieu. Can I just say one more thing?
    Senator DeWine. Yes, sure, Senator Landrieu.

                         FAITH-BASED INITIATIVE

    Senator Landrieu. I just wanted to mention that there is 
some opportunity with this new faith-based initiative that is 
moving its way through Congress in a very bipartisan way and 
with the President's commitment to involve the District. I 
think there is a real opportunity for the work that both of you 
all supervise to try to engage the power of the faith-based 
community in this community to help and become a real vibrant, 
dynamic partner in this work.
    Some churches are more inclined than others. Some have more 
experience than others. Some have better success rates than 
others. But I really challenge you all to think about the way, 
Mr. Sullivan, you said about stretching those dollars to use 
the faith-based and volunteer community to accomplish some of 
our goals.
    So I will have a question for the record in that line and 
look forward to your responses.
    Mr. Quander. If I can just say one thing: We are actually 
up and running with that. We have 25 faith-based organizations, 
churches, that are already signed up. We have in excess of--we 
have 80 offenders who have actually been matched with the 
faith-based institutions. So we have one of the few programs 
that has moved from the drawing board to actual practice. We 
have mentors who are coming in on a regular basis. So we are up 
and we are running. We just celebrated our first anniversary in 
January. And we are moving forward. So----
    Senator Landrieu. Well, that is great. We will see if these 
churches really work, you know.
    Mr. Quander. No doubt.
    Mr. Sullivan. Similarly, PDS has done the same. Our 
community defender office has a relationship with a church that 
we send our juvenile clients to.
    Senator Landrieu. I think it is an untapped resource in 
many ways. So I commend you all for that. Thank you.

   ADDITIONAL SUBMITTED STATEMENT AND ADDITIONAL COMMITTEE QUESTIONS

    Senator DeWine. Senator Strauss has submitted a prepared 
statement. It will be included in the record.
    [The information follows:]

               Prepared Statement of Senator Paul Strauss

    Chairman DeWine, Ranking Member Landrieu, and others on this 
Subcommittee, as the elected United States Senator for the District of 
Columbia, and an attorney who practices in the family court division of 
our local courts I would like to state for the record that I fully 
support the fiscal year 2004 Budget Request for the District of 
Columbia Courts, Defender Services, and the Offender Supervision 
Agency. As an elected Senator for the District of Columbia I stand by 
the Court System of District of Columbia. It is vital that the District 
of Columbia Court System be fully funded in the amount asked for today.
    I respect the positions of all of the witnesses that are here today 
and know that they and their staffs have worked hard on their budget 
proposals. I know that the fiscal marks that they are testifying in 
support of today are what they need in order for the D.C. Court System 
to continue to operate at full capacity. Since, as the District of 
Columbia Senator, I myself can not vote on this appropriation I am 
limited to merely asking you to support their proposals.
    The citizens of the District of Columbia deserve a judicial system 
of the highest quality. Unlike citizens of any other jurisdiction, we 
lack the legal rights to make these funding decisions internally. 
Unless the D.C. Courts are fully funded by the Congress, they will not 
be fully funded. Our Judges should be selected locally, not by the 
President. The D.C. voters recently expressed their preference for the 
principle of a locally elected prosecutor, instead of a Federal U.S. 
Attorney to prosecute local crimes.\1\ This is not just an issue of 
simply providing funds but it is an issue of justice. The District of 
Columbia should not have to look to Congress for the sole financial 
support of its courts. This is just another limit on the District of 
Columbia's ability to have self-government. I have made the case 
against these injustices many times before many Committees of this 
body. I do not intend to belabor them here today because the 
unfortunate truth is that while this status quo is maintained it is 
absolutely essential that Congress fully fund the D.C. Court system.
---------------------------------------------------------------------------
    \1\ D.C. Ref.: Establishment of an office of the District Attorney 
for the District of Columbia. On November 5th, 2002 85,742 or 82 
percent voted in favor while 18,558 or 17 percent voted against. 
Source: District of Columbia Board of Elections and Ethics.
---------------------------------------------------------------------------
    In this regard, I wish to sincerely thank the Subcommittee for 
holding this hearing. The political reality is that the voters of Ohio 
or Louisiana will not hold the D.C. Court system high on their list of 
legislative priorities. For you to take the time and effort to convene 
this hearing suggests that duty and principle, not politics, in this 
regard motivate your efforts.
    Just like in any other jurisdiction, fully funding the District of 
Columbia Courts is a critical step in maintaining law, order, and 
justice. It is vital to our community that our court system has 
adequate resources for the aforementioned reasons. In addition to the 
aforementioned reasons, in this day and age of heightened alerts due to 
security risks.
    The District of Columbia Courts' fiscal year 2004 request is a 
fiscally responsible budget that continues to build on past 
achievements to meet current and future needs. Some of the needs that 
will be met by the budget proposal submitted by the D.C. Courts are 
enhancing public security, investing in human resources, investing in 
information technology, expanding strategic planning and management, 
and strengthening services to families.
    Moreover, having stated the importance of fully funding the 
District of Columbia Court System, I would like to emphasize the 
importance of fully funding the Court's Defender Services line item. In 
order to provide adequate representation to families in crisis we need 
to fully fund Defender Services. All of this Committees good work on 
Family Court reform is in jeopardy with out the resources to back it 
up. The Family Court is an institution that must protect the District's 
most vulnerable citizens--its children, as well as provide countless 
other, more mundane yet important, legal functions common to every 
jurisdiction. The safety of children should not and will not be 
compromised due to political agendas or simple lack of funding. 
Although the budget provides training for new attorneys, experienced 
advocates best serve these children. We are in danger of losing our 
most experienced child advocates due to budget cuts.
    Once again this year the D.C. Court System asked for an increase in 
the hourly rate paid to attorneys that provide legal services to the 
indigent including those attorneys that work hard to represent abused 
and neglected children ad guardia and ad litems in Family Court. The 
first fee increase in nearly a decade was implemented in March of 2002 
when it was increased to the present rate of $65 per hour. In the 
fiscal year 2004 request the Courts recommend an incremental increase 
from the current $65 an hour to $75 per hour and eventually to $90 per 
hour. The reason that this adjustment is so important, is that the 
Federal court-appointed lawyers, literally across the street already 
get paid $90 an hour to do very similar work. Therefore, the disparity 
in pay between the two positions creates a disincentive amongst the 
``experienced'' attorneys to work for Defender Services in D.C. Court. 
I call on this Subcommittee to once again eliminate this disincentive. 
It was unfortunate that the fiscal year 2003 Appropriations Bill that 
came out of Conference and was signed into law by the President did not 
include this raise that this Committee, and full Senate rightly 
included into their mark up of the bill. I urge this Subcommittee to 
fully fund the requested increase in the defender services line item in 
the bill for fiscal year 2004 just like they did for fiscal year 2003, 
and then fight vigorously to defend that mark if a conference becomes 
necessary.
    Senator Landrieu, you have stated that the District of Columbia 
Family Court should be a ``showcase'' for the whole country. I firmly 
agree with that statement and add that as an attorney who practices 
regularly in the D.C. Family Court, I believe that it is, thankfully, 
on its way toward being that ``showcase''. However, there is continued 
need for improvement. I know that this Subcommittee has been firmly 
committed to the D.C. Family Court. On behalf of my constituents I 
thank you for all your hard work and dedication and I look forward to 
your continued cooperation. There has been strong bipartisan support in 
this Subcommittee for the D.C. Family Court. In particular, I commend 
Senators DeWine and Landrieu for all the great work that they have done 
on this important issue. Both of them have treated the D.C. Family 
Court as if it were a court in their own States.
    As a District resident, I look forward to the day when the District 
of Columbia does not have to look to Congress for the financial support 
of its courts. This is just another limit on the District of Columbia's 
ability to govern itself. However, if the status quo remains then it is 
absolutely essential that Congress fully fund the D.C. Court system.
    In conclusion, I would like to thank the Subcommittee for holding 
this important hearing. I urge this Subcommittee to take the budget 
proposals submitted today into strong consideration. Finally, let me 
take this opportunity to thank Matt Helfant of my staff for his 
assistance in preparing this statement. I look forward to further 
hearings on this topic and I am happy to respond to any requests for 
additional information.
                                 ______
                                 
         Questions Submitted to the District of Columbia Courts
    Questions Submitted by Senators Mike DeWine and Mary L. Landrieu

                           CAPITAL QUESTIONS

    Question. How much is allocated in fiscal year 2003 for the Old 
Courthouse?
    Answer. For fiscal year 2003, $7 million is allocated for the Old 
Courthouse.
    Question. For the underground garage?
    Answer. Because NCPC required an urban design master plan for 
judiciary before commencing work on the underground garage, the 
underground garage has been included in the overall Old Courthouse 
restoration project, as had been envisioned by earlier studies for the 
project. GSA has advised the Courts that the advantage of separating 
the garage, which was saving time by using a design-build contractor, 
was negated by the master plan requirement.
    Accordingly, the $7 million allocated for the Old Courthouse will 
finance design for both the garage and the restoration. We expect the 
garage to be first in the construction phase of the overall project.
    Question. How much was provided in the Fiscal Year 2003 Mil Con 
bill for the Military Court's share of the garage?
    Answer. Our understanding from the Court of Appeals for the Armed 
Forces (CAAF), is that $2.5 million was appropriated for construction 
costs of the garage in fiscal year 2002. In addition, the CAAF has paid 
GSA $850,000 for their share of the design costs. The costs of the 
garage have been divided between the D.C. Courts and the CAAF based on 
the share of parking spaces to be allocated to each.
    Question. How much has been provided for what could be considered 
Family Court improvements (in fiscal year 2002 and fiscal year 2003)? 
How much requested in fiscal year 2004 and fiscal year 2005 for these 
purposes?

                             D.C. COURTS CAPITAL REQUEST TO SUPPORT FAMILY COURT ACT
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
                                                       2002            2003        2004 Request    2005 Request
----------------------------------------------------------------------------------------------------------------
Original Request................................     $18,643,000     $16,068,000     $37,084,000      $2,830,000
Revised GSA figures.............................      18,643,000      16,068,000      11,410,000      29,294,000
----------------------------------------------------------------------------------------------------------------

    In fiscal year 2002 and fiscal year 2003, the costs reflect mainly 
(1) implementation of the Interim Plan (detailed in the April 5, 2002 
Transition Plan) to provide efficient, family-friendly facilities for 
the Family Court and (2) the Integrated Justice Information System 
(IJIS).
    For fiscal year 2004 and fiscal year 2005, the costs reflect (1) 
continuing IJIS throughout the Courthouse (which will give judicial 
decision-makers the most complete information on which to base 
decisions in children's cases) and (2) two-thirds of the estimated cost 
of the Moultrie Courthouse expansion project, approximately two-thirds 
of which will renovate or provide additional space for permanent, 
state-of-the-art, family-friendly facilities for the Family Court.
                                 ______
                                 
  Questions Submitted to the Court Services and Offender Supervision 
                                 Agency
    Questions Submitted by Senators Mike DeWine and Mary L. Landrieu
    Question. The funds to renovate Karrick Hall were appropriated in 
fiscal year 2002, but the renovation work has not yet begun. What are 
the circumstances surrounding the delay? What is your schedule for 
adding additional capacity?
    Answer. The use of CSOSA's renovation funds, as well as any 
District funds for similar purposes, was predicated upon the Mayor's 
submission to the of a Master Plan for the future use of the DC General 
Hospital campus (known as Reservation 13) to the DC Council by March 
31, 2002. Although the Mayor's plan was submitted by this deadline, it 
only provided for CSOSA's Reentry and Sanctions program to function in 
Karrick Hall for an ``interim'' period. The length of that period was 
not defined, and there was no provision made for the program's 
permanent location.
    Therefore, in the spirit of public safety partnerships and 
collaborations, CSOSA initiated another planning project with the City 
to identify alternatives to renovating Karrick Hall, including new 
construction, and make recommendations. That additional planning effort 
concluded in October 2002 that the renovation of Karrick Hall is the 
only viable alternative to provide a Re-entry and Sanctions program on 
the grounds of D.C. General, within the funding provided by Congress. 
The time for completing the renovation work is estimated at 12 months 
after construction begins. Construction is expected to begin within 6 
months of City approval to proceed with the renovation. During 
construction, the current program must be relocated and also allow for 
expansion of one additional 18 bed unit.
    Despite the findings of the joint planning effort, the City's 
planning staff is still holding to the Master Plan's long-term vision 
of tearing down Karrick Hall, and all of the other existing buildings 
on and campus, and commercially developing much of the property along a 
stretch identified as ``Massachusetts Avenue extended.'' However, the 
$13 million that has been provided to CSOSA is about $10 million short 
of what is required for a new building. In addition, various land 
siting, planning and construction issues would require approximately 36 
months to build a new building.
    CSOSA is anxious to complete work on Karrick Hall and bring the Re-
entry and Sanctions program online because of its proven potential as a 
tool to reduce recidivism. A study by the University of Maryland, 
Institute for Behavior and Health dated May 31, 2002 found that 
offenders who participated in the Washington/Baltimore HIDTA drug 
treatment program, currently operated in Karrick Hall, were less likely 
to commit crimes. Overall the arrest rate for Washington/Baltimore 
HIDTA treatment participants dropped 51.3 percent. The Washington AOC 
participants experienced a 75 percent decrease.
    Question. CSOSA's annual treatment funding has increased by 100 
percent since fiscal year 2000. Is this funding sufficient to meet the 
demand for treatment? What is being done to ensure that these resources 
are used most effectively?
    Answer. CSOSA's increased treatment funding has enabled us to make 
more placements and meet more demand. In fiscal year 2000, CSOSA 
(including PSA) made 1,692 treatment placements. This increased to 
1,875 placements in fiscal year 2001 and 3,510 placements in fiscal 
year 2002. (This includes substance abuse, sex offender, and domestic 
violence programming.) As funding has increased, the number of 
placements has increased proportionately.
    Even with the increased resources, however, CSOSA has not been able 
to place all offenders and defendants who need treatment. Approximately 
2,900 offenders received multiple positive drug tests in fiscal year 
2002. During the same period, CSOSA placed 1,665 offenders in substance 
abuse treatment. This means the Community Supervision Program can meet 
approximately 57 percent of the need for substance abuse treatment.
    If treatment is a condition of probation or parole, the offender's 
placement receives priority. For placements made by CSOSA, an 
assessment process determines what type of treatment would be most 
beneficial to the offender. We have also developed in-house treatment 
readiness and sanctions groups that help the offender develop the 
commitment necessary to complete treatment. Approximately 600 offenders 
attend these groups at any given time.
    Our Reentry and Sanction Center initiative is a critical element of 
our ability to use treatment resources effectively. The Reentry and 
Sanctions Center will increase the availability of intensive assessment 
and sanctions-based treatment for the high-risk substance-abusing 
offender.
    We are also in the early stages of research that should help us 
refine our treatment assessment process to use resources more 
efficiently. We have worked with vendors to develop a range of short- 
and longer-term residential programs, as well as a transitional housing 
program. Research will enable us to tell which programs have the 
greatest benefit and how much treatment an offender needs to complete 
before a positive behavioral change can be sustained.
    Question. You have repeatedly stated that your target caseload is 
50 offenders per officer in general supervision. Your testimony 
indicates that you feel that target can be reached with the resources 
requested last year and this year. What about high risk cases, such as 
sex offenders and mental health cases? What are you doing to manage the 
offenders most likely to pose a risk to public safety or to need 
special services?
    Answer. CSOSA has implemented several strategies to manage high-
risk cases. First, we assess the risk of every offender entering 
supervision. This assessment considers the current offense, criminal 
history, and community stability. Based on the results, we assign a 
supervision level that determines how often the offender will meet with 
his or her supervision officer. In addition, all offenders entering 
supervision for at least 30 days begin a program of drug testing that 
begins with very intensive testing and gradually relaxes as the 
offender demonstrates abstinence.
    Cases classified as needing ``intensive'' supervision are presented 
to the Metropolitan Police Department at a meeting in the Police 
Service Area where the offender lives. This presentation includes a 
photo of the offender. These cases are also targeted for joint CSOSA/
MPD site visits--called Accountability Tours--to raise the offender's 
awareness of the need to comply with conditions of supervision.
    In addition to these procedures applying to all offenders, some 
categories of offenders are assigned to specialized caseloads. Sex 
offenders, domestic violence cases, and offenders with active mental 
health issues constitute special supervision categories. These 
caseloads are lower than the general supervision caseloads. At present, 
the average special supervision caseload is 44 offenders per officer. 
Officers managing specialized cases receive additional training in the 
needs and characteristics of this type of offender. In future years, 
CSOSA anticipates lowering these specialized caseloads further.
    Finally, CSOSA is exploring ways in which technology can assist 
officers in managing high-risk offenders. We are researching Global 
Positioning System-based electronic monitoring that would enable us to 
track the offender's exact location at any time. We are looking at 
biometric technologies that will enable us to track the offender's 
attendance at work, treatment, or other required activities.
    Question. You have repeatedly stated that rearrests have decreased 
since your supervision officers began working with offenders in D.C. 
Halfway Houses. Where are rearrests at this time?
    Answer. Our latest statistics indicate that parole rearrests were 
fairly stable throughout fiscal year 2002 (approximately 95 per month). 
While this is a slight increase from last year, it is still 
substantially below the level experienced in May 1998, when CSOSA began 
working with parolees in halfway houses. At that time, the monthly 
parolee rearrest rate had reached 158.
    As our ability to obtain and analyze data has increased, we have 
been able to develop more accurate rearrest statistics for the entire 
population, including probationers. In fiscal year 2002, 2,809 
probationers were rearrested. Overall, 18 percent of the total 
supervised population was arrested. This is a slight increase (2 
percentage points) over fiscal year 2001.
    It is important to view offender rearrest in the overall context of 
total arrests. MPD arrested an average of 2,630 individuals per month 
in fiscal year 2002. Of these, 328 were individuals under CSOSA 
supervision. CSOSA's clients make up approximately 13 percent of MPD's 
monthly arrests.
    Question. How does the halfway house situation in the District 
affect your officers' ability to work with offenders prior to the start 
of supervision?
    Answer. Halfway house placement is an important element of 
successful parole supervision. It provides a transitional environment 
in which the offender can begin to cope with post-incarceration stress. 
He or she can obtain employment, finalize living arrangements, and 
formulate a plan to address the many issues that accompany re-entry 
into the community.
    Unfortunately, only about half of the parolees entering CSOSA 
supervision are placed in halfway houses. Bureau of Prisons (BOP) 
policy limits the type of offender who is recommended for placement; 
moreover, recently the BOP has moved toward strict enforcement of 
sentencing rules that limit halfway house placement to no more than 10 
percent of the sentence. For many parole violators and short-term 
felons, this effectively eliminates halfway house placement as an 
option. CSOSA has consistently recommended that the halfway house stay 
be at least 90, and preferably 120, days.
    At this time, that length of stay is not being achieved for most 
placements. Shorter halfway house stays reduce CSOSA's ability to work 
with the offender on an effective transition to community supervision.
    Question. Offender reentry has received a lot of attention from the 
media recently. How many offenders return to the District of Columbia? 
Do you anticipate that the number of offenders returning to the 
District will increase over the next few years?
    Answer. In fiscal year 2002, 2,148 offenders returned from prison 
to CSOSA supervision. This has held fairly constant over the past 
several years. CSOSA does not project a significant increase in the 2 
years for which projections have been completed. Overall, we expect an 
increase of about 2 percent in the parolee population in the next 2 
years.
    Question. What is CSOSA doing in the area of offender reentry?
    Answer. CSOSA's reentry program begins in the halfway house, where 
supervision officers assess the offender and develop an interim 
supervision plan that remains in effect for the first 90 days post-
release. For offenders who do not transition through halfway houses, 
assessment and case planning occur at the start of supervision.
    In fiscal year 2002, CSOSA engaged in significant efforts to begin 
linking returning offenders to community-based resources. We are 
working with Mayor Williams' Reentry Steering Committee on 
implementation of a comprehensive city-wide reentry strategy. This 
strategy will increase the returning offender's access to a wide range 
of services--not just supervision and treatment, but health care, job 
training, housing, official identification, and all the other services 
that a returning resident would need.
    Our Faith Community Partnership also connects returning offenders 
to the community. Research tells us that strong, positive relationships 
are essential to successful reentry, particularly during the initial 
stages of the process. We approached the city's faith institutions to 
provide this sort of guidance and role modeling through volunteer 
mentoring. Since the initiative was first announced in January 2002, 
response has been overwhelming. Over a hundred volunteer mentors have 
come forward to be trained. Offenders are hearing about the program 
while in prison and are asking to be part of it. We are currently 
working with the Bureau of Prisons to extend the program to the Rivers 
Correctional Facility in North Carolina, which houses about one 
thousand District of Columbia inmates.
    To date, about 80 offenders have received mentors. While the 
program is still very new, we have received strong anecdotal evidence 
that the participants are benefiting from the support and involvement 
of mentors. We recently held a citywide assembly to commemorate the 
program's first anniversary. At this event, two participating offenders 
gave testimony to the positive difference their mentors have made.
    In this second year of the Faith Community Partnership, we intend 
to continue the mentoring component and also focus on bringing the 
services of the faith community to returning offenders. Many faith 
institutions provide job training, housing, family counseling, and 
other resources which would greatly benefit our offenders. We are 
working with our member institutions to develop referral protocols and 
locate resources that can be used to increase program capacity.
    Question. You testified that 85 percent of arrests in the District 
do not involve offenders under CSOSA supervision, yet most crimes are 
committed by repeat offenders. What is CSOSA doing to reduce 
recidivism? What level of success have you achieved?
    The reduction of recidivism is CSOSA's most important priority. We 
recognize that our involvement in an individual's life is relatively 
brief. The average term of probation lasts about 20 months; the average 
parole, 5 years. An offender's criminal career can last much longer 
than CSOSA's window of opportunity to end that career.
    That is the main reason why our program model combines 
accountability with opportunity. Accountability lasts as long as an 
officer is there to enforce it. Opportunity lasts long past CSOSA's 
involvement. If we can help offenders develop positive ties to the 
community, they will be less likely to injure that community through 
crime. If we can help offenders understand and overcome their substance 
abuse, they will no longer commit crimes to support a drug habit.
    The primary mechanism for enforcing accountability is sanctions. In 
fiscal year 2002, over 900 instances of sanctioning were entered into 
the Community Supervision Program's case management system. We have put 
in place a sanctions matrix that identifies specific consequences for 
non-compliant behaviors. Sanctions range from verbal reprimand to 
short-term residential placement--called halfway back. We believe that 
our sanctions system will contain and correct non-compliant behaviors 
before they develop into full-fledged criminal activity.
    Our strategic plan identifies five intermediate outcomes that 
contribute to a reduction in recidivism: decreased rearrest, decreased 
drug use, decreased instance of revocation, increased employment and 
job retention, and increased education levels. We have begun tracking 
the results of each of these intermediate steps. We are confident these 
results will lead to a significant reduction in recidivism.
    Question. In your testimony, you discussed CSOSA's partnership with 
the Metropolitan Police Department. Does CSOSA partner with any other 
criminal justice agencies?
    Answer. CSOSA is an active member of the District of Columbia and 
Federal criminal justice communities. We believe that collaboration is 
essential to our success, and we are constantly seeking new 
opportunities to work with our colleagues in the field. CSOSA 
participates in the District's Criminal Justice Coordinating Council. 
We have conducted cross-training with the United States Parole 
Commission to improve staff communication between the agencies. We have 
developed a Memorandum of Understanding with the Federal Bureau of 
Prisons to place our officers in BOP-operated halfway houses, and with 
the city's Department of Employment Services to obtain targeted 
employment assistance. We are also collaborating with the BOP in an 
effort to increase public understanding of the vital role of halfway 
houses in the criminal justice system. CSOSA works continually to 
improve our coordination with our criminal justice partners and to 
provide a valuable public safety presence in the District of Columbia.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Thank you.
    [Whereupon, at 11 a.m., Wednesday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
